<html>
<title> - CHINA'S REGIONAL ETHNIC AUTONOMY LAW: DOES IT PROTECT MINORITY RIGHTS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 CHINA'S REGIONAL ETHNIC AUTONOMY LAW: DOES IT PROTECT MINORITY RIGHTS?

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2005

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-045                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

CHUCK HAGEL, Nebraska, Chairman      MEMBERS TO BE APPOINTED
SAM BROWNBACK, Kansas
GORDON SMITH, Oregon
JIM DeMINT, South Carolina
MEL MARTINEZ, Florida
MAX BAUCUS, Montana
CARL LEVIN, Michigan
DIANNE FEINSTEIN, California
BYRON DORGAN, North Dakota

                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  STEPHEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Phillips, David L., senior fellow and deputy director, Center for 
  Preventive Action, Council on Foreign Relations, and visiting 
  scholar, Harvard University, New York, NY......................     3
Atwood, Christopher P., associate professor, Department of 
  Central Eurasian Studies, Indiana University, Bloomington, IN..     6
Bovingdon, Gardner, assistant professor, Department of Central 
  Eurasian Studies, Indiana University, Bloomington, IN..........     9

                                APPENDIX
                          Prepared Statements

Phillips, David L................................................    30
Atwood, Christopher P............................................    44
Bovingdon, Gardner...............................................    48

 
 CHINA'S REGIONAL ETHNIC AUTONOMY LAW: DOES IT PROTECT MINORITY RIGHTS?

                              ----------                              


                         MONDAY, APRIL 11, 2005

                            Congressional-Executive
                                        Commission on China
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2255, Rayburn House Office Building, John Foarde (staff 
director) presiding.
    Also present: Susan Roosevelt Weld, general counsel; Carl 
Minzner, senior counsel; Katherine Kaup, special advisor for 
minority nationality affairs; and Laura Mitchell, research 
associate.
    Mr. Foarde. Good afternoon, everyone. Let us get started. 
It is such a beautiful spring day outside that I admire the 
fortitude not only of our panelists, but also of all of you who 
have come to listen to them this afternoon. I assume that we 
will have a few more people attending in due course. But in any 
case, we have prided ourselves over the last three and a half 
years at getting started on time and ending on time, so we are 
going to get busy.
    I would like to welcome our three panelists, and everyone 
in the audience, on behalf of Senator Chuck Hagel, the chairman 
of the Congressional-Executive Commission on China, and the 
members who have been appointed so far on the Senate side and 
in the Administration.
    We are gathered this afternoon to take a look at the 
regional ethnic autonomy law, particularly with respect to 
three distinct minority groups in China. The Chinese Government 
recognizes over 100 million people living within its borders as 
belonging to one of 55 minority nationalities. Although 
minorities constitute less than 9 percent of China's total 
population, they occupy over 60 percent of the country's total 
landmass, primarily along international borders. Minority areas 
are often located in resource-rich regions. More than 30 of the 
groups have ethnic counterparts abroad, making the assurance of 
their loyalty of strategic concern to the Chinese Government.
    The Constitution and the 1984 Regional Ethnic Autonomy Law 
guarantee numerous rights to minorities, including self-
government within designated autonomous areas; proportional 
representation in the government; freedom to develop their own 
languages, religions and cultures; and the power to adjust 
central directives to local conditions. The laws also guarantee 
minorities greater control over local economic development than 
allowed in non-autonomous areas, the right to manage and 
protect local natural resources and the right to organize local 
public security forces to safeguard public order.
    The implementation of the Regional Ethnic Autonomy Law has 
varied greatly across China. The Chinese Government 
systematically denies some minorities their legal rights and 
arbitrarily arrests their members for exercising legally 
protected freedoms. The government has particularly failed to 
uphold the legal rights of minorities living in the Tibetan 
Autonomous Region, the Xinjiang Uighur Autonomous Region, and 
the Inner Mongolian Autonomous Region. So this afternoon we 
want to look in depth at how the Regional Ethnic Autonomy Law 
and its implementation affects people in Tibet, Xinjiang, and 
Inner Mongolia.
    To help us with that inquiry, we have three distinguished 
panelists. I will introduce each in greater detail before they 
speak. David Phillips, senior fellow at the Council on Foreign 
Relations; Gardner Bovingdon, assistant professor, Department 
of Central Eurasian Studies at Indiana University; and 
Christopher Atwood, associate professor in the Department of 
Central Eurasian Studies, also at Indiana University.
    I would like to recognize, then, to start, David Phillips. 
As I introduce him, let me say that, carrying on with the 
practice we have had over the last three years or so, we will 
ask each of our panelists to speak for 10 minutes. After about 
eight minutes, I will tell you that you have two minutes 
remaining, and that is your signal to wrap things up. 
Inevitably, you will not reach all the points that you want to 
make, and we will try to pick those up in the question and 
answer session that will follow the formal presentations. We 
will give each of our staff panel about five minutes to ask a 
question and hear the answer, and we will do as many rounds as 
we have time for until you are exhausted and cry ``uncle'' or 
until 3:30 arrives, whichever is first.
    So, let me introduce David Phillips. He is the project 
director of a collaborative research project on ``Legal 
Standards and Autonomy Options for Minorities in China: the 
Tibetan Case;'' and he is deputy director of the Center for 
Preventative Action at the Council on Foreign Relations. He is 
currently a visiting scholar at Harvard University's Center for 
Middle East Studies, and director of the Program on Conflict 
Prevention and Peace Building at American University's Center 
for Global Peace. In his alleged spare time, he has also been 
an analyst for NBC News, and works today providing commentary 
to the BBC. He has served as a senior advisor to the United 
Nations Secretariat, and also to the U.S. Department of State. 
Formerly the president of the Congressional Human Rights 
Foundation, Mr. Phillips serves on numerous boards of 
organizations concerned with human rights, humanitarian 
affairs, peace, and conflict prevention.
    Welcome, David Phillips. Thank you for sharing your 
expertise with us this afternoon.

   STATEMENT OF DAVID L. PHILLIPS, SENIOR FELLOW AND DEPUTY 
  DIRECTOR, CENTER FOR PREVENTIVE ACTION, COUNCIL ON FOREIGN 
RELATIONS, AND VISITING SCHOLAR, HARVARD UNIVERSITY, NEW YORK, 
                               NY

    Mr. Phillips. Thank you, Mr. Foarde and members of the 
staff panel. It is a great pleasure to be with you this 
afternoon and to discuss the report that Mr. Ted Sorensen and I 
authored, published at Harvard University's Belfer Center for 
Science in International Affairs, titled ``Legal Standards and 
Autonomy Options for Minorities in China: the Tibetan Case.'' I 
have also submitted for the record a copy of the report and a 
compilation of 161 laws and regulations concerning autonomy 
arrangements in the ethnic Tibetan areas of western China.
    The focus of our work was on the five provinces of western 
China, the Tibet Autonomous Region, and the provinces of 
Sichuan, Yunnan, Gansu, and Qinghai. The report provides an 
assessment of existing national, provincial, and prefectural-
level laws and regulations. It analyzes and outlines existing 
international standards for treatment of minorities and 
autonomy arrangements, offers a menu of autonomy options based 
on international models, itemizes Chinese laws, and provides a 
more complete description of 22 global autonomy arrangements.
    During a trip to China in June 2004, we had extensive 
contact with Chinese officials, think tank representatives, and 
cadres involved in ethnic autonomy issues. Our discussions 
focused on implementation of the existing body of law in China.
    Having visited China a number of times over the past 12 
years, I heard a dramatically different message on this visit 
than previous visits. Chinese officials talked about the need 
to ``improve'' the country's legal system, ``perfect'' 
arrangements for ethnic autonomy, ``adapt'' measures to local 
conditions, and ``conform'' laws and regulations on minority 
rights to international standards. I remember my first meetings 
with the United Front's Bureau Number 2, the office that deals 
with ethnic Tibetan matters. Discussions were a one-way street. 
In contrast, there was genuine discourse and an exchange of 
views during our visit nine months ago.
    Recent developments are important to note. They provide 
political context for scholarly analysis as well as our 
discussions here today. Chinese officials affirmed that their 
contact with overseas Tibetans in Dharamsala proved that ``This 
method proves there is contact between the central government 
and the Dalai Lama. The lines of communication are open.''
    Tibetans also recognize that autonomy is the best and most 
realistic way to preserve Tibetan culture. The Dalai Lama has 
adhered to the ``one-China line'' with increasing clarity over 
the years. In an important interview two weeks ago in the South 
China Morning Post, he indicated: ``I'm not in favor of 
separation. Tibet is a part of the People's Republic of China. 
Tibetan culture and Buddhism are part of Chinese culture.'' He 
also recognized the ``broader interest'' of Tibetans, 
suggesting that Tibetans would benefit from China by sharing in 
its material wealth. His statements create an opportunity to 
deepen discussions between representatives from Dharamsala and 
Chinese officials, hopefully paving the way for the Dalai 
Lama's return to Lhasa in his spiritual and religious capacity.
    In order to advance this goal, and responding to the 
openness of Chinese officials to conform autonomy arrangements 
with international standards, I would like to propose that, as 
part of the bilateral dialogue between China and the United 
States on human rights, that the U.S. Government propose the 
establishment of an international study group on international 
models of autonomy. The activities of the study group would 
include exchange programs between Chinese and international 
scholars, field research by Chinese officials to autonomous 
areas in other countries, and the establishment of an academic 
consortia providing policy and program information, as 
requested by Chinese participants. It is envisioned that this 
study group would be resourced by the U.S. Government; its 
terms of reference would be jointly negotiated between U.S. and 
Chinese officials; the study group could be established at a 
university or a think tank in the United States, and it may 
involve participation from European institutions or 
institutions in the Asia-Pacific region. Suitable Chinese 
counterpart institutions might include the State Ethnic Affairs 
Commission, the Chinese Academy of Social Sciences, Chinese 
Minorities University, and/or the Chinese Center for Tibetology 
Research.
    The report that you have, and which is entered into the 
record, provides detailed information on Chinese laws and 
regulations on matters concerning governance, economy, and 
culture. It assesses laws and regulations that have been 
adopted at the national level, the provincial level, and to the 
greatest extent possible, at the prefectural levels. But for 
the purpose of brevity, I will summarize the laws and 
regulations concerning religion, which is the focus of 
overtures from the overseas Tibetans to the Chinese Government. 
Under a 1952 State Council decision, all minorities are to 
enjoy, among other things, the same freedom of religion as is 
enjoyed by Han people in the same locality. The State Ethnic 
Affairs Commission requires that the observance of minority 
holidays, dietary restrictions, and religious practices be 
allowed.
    The PRC Autonomy Law requires the autonomy agencies of 
ethnic autonomy areas to guarantee the freedom of religion of 
citizens of all ethnic groups. No state agency, social group, 
or individual may force any citizen to adopt any beliefs or 
disavow any religious beliefs and may not discriminate against 
citizens who have religious beliefs and those who do not. The 
state protects ``normal'' religious activities. However, no 
person may use religion to destroy social order, damage the 
health or well-being of citizens, or interfere with the state 
education system. In addition, religious groups and 
institutions may not accept support from ``foreign forces.''
    While the government respects and protects religious 
freedom of citizens, all religious activities must be carried 
out within the scope of the Constitution and in compliance with 
all laws, regulations and policies of the Chinese Government. 
All religious groups and places of religious activity and 
individuals must accept the leadership of the Communist Party 
of China, the government, and support the socialist system.
    Religion or places of religious activity may not be used to 
incite trouble, create havoc, or carry out criminal activities 
such as separatism, steps to destroy the unity of ethnic 
groups, or disturb social and public order. The approval of the 
Central People's Government is required for the rebuilding or 
opening of all places of religious activity. Registered places 
will receive legal protection. Places of religious activity are 
to be managed by ``patriotic religious groups,'' whose members 
must support the Party and socialism, be patriotic and law-
abiding, and who safeguard the unity of the state and ethnic 
group.
    The Interim Measures of the Tibet Autonomous Region on the 
Administration of Religious Affairs set a quota and an 
application system for monks and nuns. Applicants who wish to 
become a monk or nun must, among other things, be patriotic and 
law-abiding.
    Propaganda and publishing departments are to control the 
publication of documents that contain religious content so that 
they conform to the religious policies of the Party or the 
state. Approval from relevant departments is required to edit, 
publish, or distribute religious materials, including video and 
audio recording.
    In Gansu Province, religious teachers may not proselytize 
outside places of religious activity. Moreover, the activities 
of self-proclaimed preachers are prohibited. No foreign 
donations for proselytizing activities may be accepted by any 
party. Major donations from foreign organizations or followers 
require the approval of the Central People's Government or the 
Religious Affairs Bureau of the State Council.
    Foreign personnel who go to Qinghai may not, without 
approval, ``broadcast'' audio or videotapes of sermons by 
foreign religious persons or distribute religious tracts.
    The report that we have published is not a human rights 
report; it is an assessment of Chinese law. There is clearly a 
gap between the legislative intent of Chinese laws and 
regulations and their 
implementation.
    Of significance, Chinese officials did not dispute the need 
to move forward with both drafting and implementing laws in a 
way that standardizes the approach in all of the ethnic Tibetan 
areas of western China.
    Thank you, Mr. Foarde.
    [The prepared statement of Mr. Phillips appears in the 
appendix.]
    Mr. Foarde. Thank you very much, David Phillips, for 
kicking off our conversation and raising a host of interesting 
issues that we will take up during the question and answer 
session.
    Next, I would like to recognize Christopher P. Atwood, 
associate professor from the Department of Central Eurasian 
Studies at Indiana University in Bloomington, IN. He is 
associate professor of Mongolian Studies, and he has published 
extensively on Mongolia and Inner Mongolia. In his 2000 book, 
``Young Mongols and Vigilantes in Inner Mongolia: Interregnum 
Decades 1911-1931,'' he used recently opened Mongolian archives 
to explore early Chinese Communist Party nationality policy and 
pan-Mongol activism. He is the author of the ``Encyclopedia of 
Mongolia and the Mongol Empire,'' a comprehensive reference 
work on the region. His research interests include Mongolian 
nationalism, demography, and ecological immigration.
    Welcome, Christopher Atwood.

   STATEMENT OF CHRISTOPHER P. ATWOOD, ASSOCIATE PROFESSOR, 
  DEPARTMENT OF CENTRAL EURASIAN STUDIES, INDIANA UNIVERSITY, 
                        BLOOMINGTON, IN

    Mr. Atwood. Thank you, Mr. Foarde. I would, first, like to 
express my appreciation for the opportunity to appear today 
before this staff-led panel of the Congressional-Executive 
Commission on China and present my perspective on the question 
of ``China's Regional Autonomy Law: Does it Protect Minority 
Rights? '' Rather than discuss the broad range of minority 
rights issues in play in Inner Mongolia today, I would like to 
focus on the issue of ecological migration, which illustrates 
in a striking manner how the guarantees of autonomy in the 
Regional Autonomy Law failed to provide sufficient protection 
against massive state-directed dislocation of ethnic Mongol 
communities in China.
    The earliest versions of ecological migration were 
pioneered in the early 1990s in Alashan district in far-western 
Inner Mongolia under the moniker of ``three-ways labor 
restructuring.'' Responding to ongoing severe desertification 
and pasture degradation in Inner Mongolia's driest district, 
the Alashan authorities started with the basic premise that 
excess population and livestock are at the root of pasture 
degradation. Their ``three-ways restructuring'' plan envisioned 
one-third of the current pastoral population continuing as 
herders, one-third switching to arable cultivation, and one-
third entering township or urban enterprises.
    In 2001, this basic idea was adopted by the Inner Mongolian 
Government and renamed ``ecological migration.'' The vastly 
expanded plan involved moving up to 650,000 persons out of 
areas where grasslands are subject to severe degradation into 
towns and other areas. Considerable sums are being assigned to 
build housing and other infrastructure for the new migrants, 
although whether these sums are adequate is controversial. In 
most areas, it appears the relocations are not total, with a 
small number of herders regarded as ``rationally'' managing 
rangeland being allowed to stay.
    Those relocated may return after five years if they, too, 
can demonstrate an ability to manage the grasslands 
``scientifically.'' Thus, ``ecological migration'' accelerates 
the trend to polarization in which a small number of relatively 
well-off herders, whether ethnically Mongol or Chinese, who 
have assimilated contemporary Chinese ideas of proper livestock 
management will continue herding, while the poorer, less 
sophisticated herders will be forced off the land.
    Any evaluation of ecological migration must deal with the 
undeniable ecological crisis in Inner Mongolia today and the 
legacy of decades of over-reclamation and over-grazing. Massive 
dust storms in Beijing have alerted the Chinese central 
government to the seriousness of the situation. There exists a 
consensus among outside observers that, while overstocking of 
livestock, particularly sheep and goats, valued for their wool 
and cashmere, is currently driving much pasture degradation, 
historically, over-reclamation of marginal lands for farming 
has damaged Inner Mongolian pastures the most. Although Inner 
Mongolian policy in 1984 officially prohibited further 
reclamation of pasture, the 2003 land use law in Inner Mongolia 
appears to again encourage ``wild-cast'' land reclamation. 
Economically, we can say that the bankruptcy of smaller-scale, 
less capitalized producers and their replacement by larger 
scale commercialized producers is an unfortunate, but 
universal, aspect of economic development, although rarely so 
explicitly directed by the government as in this case.
    In terms of human rights, ecological migration raises 
serious problems. On an individual level, we can ask, ``Are 
these transfers truly voluntary, as claimed? '' Reports are 
contradictory. Yet, it would be naive to put too much stock in 
the possibility that the implementation of such migration is 
fully voluntary. Ecological migration is now government policy, 
adopted without significant public input. Those slated for 
migration are undoubtedly aware that resistance is futile.
    I would like to dispose of a red herring immediately. 
Ecological migration is often cast as a conflict of purely 
traditional Mongols, seen as stubbornly attached to rural life 
and pastoral nomadism for cultural reasons, and Han Chinese 
practicing innovative, high-productivity land use. In reality, 
however, the Mongols of Inner Mongolia are highly educated, 
with strong aspirations to success in modern sectors. In fact, 
their literacy rate is slightly higher than that of the Han 
Chinese in Inner Mongolia, and they are over-represented in the 
ranks of cadres there. Pastoralists in Inner Mongolia are more 
commercialized and have a higher income than farmers. For 
better or for worse, Mongolian herders have been quite willing 
to adopt the new, intensive managerial strategies of herding. 
At the same time, the contention that this managerial herding 
will be less harmful to the steppe than nomadic pastoralism is 
quite dubious, scientifically. In fact, increasing, not 
decreasing, mobility may be the key to saving the grasslands. 
What is beyond doubt is the almost 20 years of state-directed 
and scientifically managed programs to alleviate grasslands 
degradations have not worked, and indeed may be accelerating 
desertification. The minority rights issue, thus, is not 
modernization versus tradition, but ensuring that the Mongols 
have meaningful voice in the nature of the modernization of 
their own communities. Thus, ecological migration remains an 
ethnic issue. Although Han Chinese herders and farmers in 
affected areas are also being deported, the Mongols remain the 
predominant population group in the arid regions of Inner 
Mongolia slated for population removal, and hence are being 
disproportionately influenced by ecological migration. These 
arid grasslands constitute the heartlands of ethnic Mongol life 
where they are the local majority and dominate the community. 
Until 2001, Mongolian language, social standards, and culture 
still formed the norm in these remote areas to which the 
immigrant Han partially conformed.
    Ecological migration is breaking up many, if not most, of 
these last redoubts of Mongol community life in Inner Mongolia. 
In their new environment, the resettled migrants will often 
lack proper skills and aptitudes for their new occupations. 
Indeed, by moving the least ``managerial'' or least successful 
herders, the authorities are choosing the ones least likely to 
be able to adapt to a more urban way of life. When settled on 
the outskirts of predominantly Han cities and towns, the 
Mongols often lack Mongol language schools and become marginal 
residents in a culturally and socially alien environment. 
Already, there are alarming signs of dramatic drops in income 
among the resettled migrants, as well as sharp drops in school 
attendance as relocated Mongol students find themselves with 
either no local schools, or only Chinese language ones.
    Ecological migration thus runs directly contrary to any 
minority's right to preserve their communal life. Before 1947, 
pasture and unreclaimed Mongol steppe was held collectively by 
the ``banner,'' that is to say, a county-level unit. Decades of 
political and social conflict among the Mongol-Han frontier in 
the years leading up to 1947 revolved around the Mongols' 
tenacious and resourceful attempts to protect these collective 
land rights from encroachment by Chinese land-developers and 
their allies in the provincial governments.
    From the very inception of Chinese Communist land reform, 
however, land was transferred as a whole to the Chinese state, 
with rural producers being granted only longer or shorter 
leases. The deprivation of land rights has hardly affected only 
Mongols or minorities; collectivization in 1956 and the current 
rampant abuse of government powers of eminent domain to 
facilitate urban sprawl are simply two other egregious examples 
of this cavalier disregard of land rights.
    Articles 27 and 28 of the Law on Regional National Autonomy 
discuss land use and give the autonomous regions the right to 
determine ownership of pastures and forests. The same articles, 
however, absolutely prohibit any ``damage'' to the grasslands, 
whether by individuals or collectives, and call on the 
autonomous authorities to give ``priority to the rational 
exploitation and utilization of the natural resources that the 
local authorities are entitled to develop.'' Technocracy, thus, 
explicitly trumps individual or collective land rights. The 
ongoing destruction of Mongol local community life involved in 
ecological migration is, thus, fully in accord with, and may 
indeed actually be mandated by, China's National Autonomy Law--
as long as one accepts the disputed premise that nomadism and 
overstocking are behind desertification.
    Still, if Inner Mongolia's regional national autonomous 
organs actually spoke for the Mongol nationality, then Articles 
27 and 28 would still put these technocratic land use decisions 
in the hands of the Mongols, at least. This is not the case, 
however. Along with the rejection of banner communal land-
ownership in 1947, the newly created Inner Mongolian Autonomous 
Region in 1949 rejected the then-common practice of overlapping 
Han and Mongol local jurisdiction with Han xian, or counties, 
and Mongol banners in favor of unitary local government. Inner 
Mongolia was eventually expanded to include most of China's 
far-flung Mongol communities, but only at the price of thereby 
acquiring an overwhelming Han majority. At the prefectural and 
county levels, administrative changes ostensibly intended to 
give each unit a balance of agricultural and pastoral economies 
frequently yoked sparsely settled 
majority Mongol districts with vastly more populous Han 
majority districts. As a result, only in the arid zone 
townships--sumu--and in some purely steppe banners do Mongols 
actually predominate in government. At the prefectural and all-
regional levels, the Mongols have the worst of both worlds: 
over-represented enough through ``affirmative action'' to 
generate resentment, but not numerous enough to actually 
control decisionmaking in Mongol interests. This does not even 
take into account the power of the central government in 
Beijing.
    Thus, the regional national autonomous organs simply cannot 
act as protectors of specifically ethnic Mongol interests. Now, 
no one can deny that it would be fundamentally unfair for 
decisionmaking in a region only 16 percent Mongol, as Inner 
Mongolia as a whole is, to be monopolized by Mongols. Yet, 
apart from such a monopoly it is hard to see how the Mongols, 
as a group, can be said to have had any meaningful voice in the 
momentous decision taken in 2001 to remove whole communities 
from their ancestral lands. Under Chinese law, regional 
national autonomy, for better or for worse, is the only organ 
through which the minority nationalities exercise their 
collective right to autonomy, yet in a region with borders 
drawn wherever possible to combine Han and Mongol communities, 
such autonomy cannot help but be fictitious.
    As a result, ecological migration, despite its origins 
within the Inner Mongolian bureaucracy, is one more example of 
the inability of Chinese regional national autonomy, as 
currently structured, to allow the legitimate concerns of 
minorities even to be voiced openly, let along to prevail, in 
the public arena.
    Thank you, Mr. Foarde.
    [The prepared statement of Mr. Atwood appears in the 
appendix.]
    Mr. Foarde. Thank you very much for bringing us, for the 
first time, some real expertise and depth on the whole question 
of the Mongolian minority. We have been watching things for a 
long time, and I know we will have a chance to get into things 
in more depth during the Q&A.
    It is my privilege now to recognize an old friend of the 
Commission and the Commission staff, someone who has appeared 
before us here in Washington, and we are delighted to welcome 
back Professor Gardner Bovingdon of the same Department of 
Central Eurasian Studies at Indiana University. Gardner is the 
author of 
several articles and book chapters on Xinjiang. He is fluent in 
both Uighur and Chinese. He obtained his Ph.D. from Cornell 
University in 2002, and conducted much of his dissertation 
field work from Xinjiang University. He has published 
``Autonomy in Xinjiang: Han Nationalist Imperatives and Uighur 
Discontent'' as part of the East-West Center's Study Group on 
Xinjiang, and he is currently revising a manuscript for 
publication entitled ``Strangers in their Own Land: The 
Politics of Uighur Identity in Chinese Central Asia.''
    Welcome, Gardner Bovingdon, please.

STATEMENT OF GARDNER BOVINGDON, ASSISTANT PROFESSOR, DEPARTMENT 
 OF CENTRAL EURASIAN STUDIES, INDIANA UNIVERSITY, BLOOMINGTON, 
                               IN

    Mr. Bovingdon. Thank you very much, Mr. Foarde. I would 
also like to thank the other members of the Commission staff 
for organizing what is once again a very important panel on an 
important topic. I would also like to preface my prepared 
remarks by observing that the question of what exactly are 
universal human rights is very much a vexed and still 
contentious one, as we all know.
    I applaud the work of Mr. Phillips and Mr. Sorenson in 
preparing comparative legal materials, because I think it is 
only through this kind of rigorous comparison of the laws of 
the land in various autonomy regimes that we can come to any 
consensus about what ought to be included in a system of 
autonomy.
    I have been invited to address the question of whether the 
regional autonomy law protects minority rights in the Xinjiang 
Uighur Autonomous Region. In a recent short monograph, 
mentioned a moment ago, I considered the matter at greater 
length. Here, I will focus on one particular right invoked in 
the regional autonomy law, that of each non-Han ethno-national 
group, or minzu, to administer its own internal affairs within 
the autonomous unit or units assigned to it. Throughout, I will 
refer to these groups not as minorities, but as minzu, a 
Chinese term that keeps attention focused not on their numbers, 
but on their cultural distinctiveness with respect to the Han.
    I will take up three related matters. First, how is the 
right 
defined? In other words, what constitute the so-called 
``internal affairs? '' Second, who administers this right? 
Third, what legal recourse do groups have if the right is 
abridged?
    Now, on its face the term ``internal affairs'' seems 
irremediably vague. In fact, much of the political contention 
in modern Xinjiang can be understood as a dispute over the 
meaning of the term.
    Here, I would leap off the page of my prepared remarks and 
observe that since so much of national level political 
discourse is couched in terms of the general interest, and the 
very term ``democratic centralism'' presumes that when the 
minorities' interests differ from those of the majority, the 
majority will prevail. But this lends even greater urgency to 
the question of determining exactly what are ``internal 
affairs.''
    The law itself does little to clarify the question. 
Specific articles enumerate the rights of members of each minzu 
to vote, to be treated as equals with all other citizens, to 
use and develop their native language, to foster the 
``excellent parts'' of their native culture, and to conduct 
court proceedings in their native language. Other articles 
describe special powers of autonomy, such as the right to 
modify national laws if inappropriate to local circumstances, 
to modify educational materials, to make special fiscal 
arrangements locally and with Beijing, and to propose general 
and special autonomy laws for each unit. Yet, in each case the 
exercise of the power of autonomy is subject to approval by 
higher-level government organs. In plain language, it is not 
autonomous.
    In the view of many Uighurs, a number of matters properly 
constitute internal affairs in the autonomous region bearing 
their name: control of immigration into Xinjiang, the 
exploitation of its land, water, and mineral resources, the 
content of education and the language in which it is delivered, 
the practice of religion, the choice of family size, and the 
management of expressive culture, including music, novels, 
film, and so on. At present, all these are beyond popular 
control, by which I mean the final say on what can be produced, 
what can be promulgated, et cetera, lies outside control of the 
locals.
    If ordinary Uighurs have little opportunity to manage their 
collective internal affairs, they must depend on political 
representatives to do so on their behalf. As other scholars 
have demonstrated, there are very few mechanisms of interest 
aggregation available to ordinary citizens of China. Though the 
PRC Constitution explicitly guarantees free speech, assembly, 
and press in Article 35, many citizens throughout China have 
been prosecuted for words they have spoken or written, many 
others for taking part in demonstrations or other peaceful 
gatherings.
    The evidence suggests that these restrictions have fallen 
with particular force on certain non-Han groups such as 
Uighurs. Attempts by Uighur individuals or groups to raise 
concerns with the government, or even to express them publicly, 
have been harshly punished. Peaceful demonstrators, poets, 
teachers, and business people have all been jailed on charges 
of ``separatism'' or ``leaking state secrets.'' The stark 
limitations on popular political expression lends special 
importance to those who represent ordinary citizens in 
government organs and in the Party.
    The PRC's recent experiments with electoral democracy have 
thus far been confined to the local level. Most officials at 
higher levels of the government have long been, and continue to 
be, appointed by other officials. Party elites and autonomous 
units made extraordinarily efforts to recruit government 
officials from among non-Hans during the 15 years after the PRC 
was founded. Here, I should explain when I speak of ``non-
Hans'' in Xinjiang, it is not an accident.
    On the one hand, I point to the fact that Xinjiang has long 
been, and continues to be, a region inhabited by many different 
groups, not just Hans, not just Uighurs, but also Kazakhs and 
others, and also the fact that when the government promulgates 
figures indicating the percentage of cadres who are of the 
various--what we are calling here today--``minority 
nationalities,'' they are lumping them all together, if you 
will, to aggregate the numbers to make them look better.
    I would add that, in the view of many Uighurs--and I am not 
evaluating them myself--this is disingenuous, since after all, 
in the Uighur Autonomous Region, the percentage of Uighurs 
should itself be broken out from the whole.
    The considerable success of Party elites in doing the 
recruitment I just described is reflected in the more than 
100,000 non-Han in government positions in Xinjiang by 1965. Of 
a total body of 190,000 cadres, non-Hans thus constituted 
nearly 56 percent. Though well below their proportion in the 
general population of over 75 percent, these cadres lent 
substance by their numbers to the slogan of minzu regional 
autonomy, ``minzu quyu zizhi.'' Unfortunately, the vast 
majority were purged during the Cultural Revolution, 1966 to 
1976. By 1983, most of those had been reinstated, and many more 
non-Han recruited into the government, raising the total number 
to over 180,000. However, while the raw number of non-Han 
cadres rose substantially, their share in the total number fell 
over 10 percentage points to 43 percent. According to the PRC 
State Council's 2003 white paper in Xinjiang, the percentage 
has risen since then. Today, the nearly 350,000 non-Han cadres 
constitute almost 52 percent of the total.
    The general point to be made is that there has consistently 
been a substantial gap between the proportion of non-Han in 
government and in the population, though massive Han 
immigration has narrowed that gap considerably. The increased 
proportion of non-Han in government positions since the 1970s 
was the direct result of Beijing's calls in the early 1980s for 
increased ``nativization''--minzuhua--of governments in 
autonomous regions. Many Uighurs and other non-Han hoped that 
this presaged more numerically representative governments and, 
thus, broader autonomy in Xinjiang.
    The 2001 revision of the Regional Autonomy Law points in 
the opposite direction: where the original 1984 law suggested 
that officials ``as far as possible''--jinliang--be selected 
from among non-Han, the new version stipulates only that 
positions be apportioned ``reasonably''--heli--among groups.
    There has never been a corresponding initiative in the 
Party. The percentage gap mentioned above is much more 
pronounced in the case of Party members. In 1987, only 38.4 
percent of Party members in Xinjiang were non-Han, though non-
Hans comprised more than 60 percent of the population. The 
numbers subsequently fell. In 1994, the percentage of non-Han 
Party members had decreased to 36.7 percent. The small and 
falling proportion of non-Han in Xinjiang's Party apparatus is 
particularly significant, given the dominance of the CCP in 
political life. Party officials outrank government officials at 
corresponding ranks in the political hierarchy, and therefore 
have the final say in matters of consequence.
    The disproportion is even more pronounced in leadership 
positions. At all levels of the hierarchy, from village to 
provincial level, the overwhelming majority of Party first 
secretaries in Xinjiang have always been Han. There has never 
been an official explanation of this seeming statistical 
anomaly. This level of numerical detail suggests in broad terms 
that Uighurs and other non-Han have never enjoyed 
representation in government organs commensurate with their 
proportions in the population, and have been even less well-
represented in the Party. It remains to point out that, in the 
estimation of ordinary Uighurs, those Uighurs who have risen to 
top leadership positions have been selected not for their 
responsiveness to popular concerns, but for their tractability 
in the eyes of the Party.
    Thus, the problem of defining the right under consideration 
is compounded by an inadequate body of representatives charged 
with giving substance to that political right. Where can 
ordinary Uighurs turn if they feel the right to manage Uighurs' 
internal affairs have been compromised and their 
representatives have not protected their interests? The Chinese 
legal scholar Yu Xingzhong illustrates a crucial weakness in 
the 2001 Regional Autonomy Law. Though the law enumerates 
certain rights, including the one under consideration here, it 
is, in his words, ``non-actionable.'' ``The enforcement of this 
law,'' he says, ``rests entirely on the conscience and 
awareness of the departments concerned. If a state organ fails 
to implement such a law, there is no legal basis to hold such 
an organ responsible and hence no remedy can be sought. . . . 
In addition, a basic law like this is constitutional by nature 
and as such, like the PRC Constitution itself, is not 
actionable. Past experience has shown that the Regional 
Autonomy Law has rarely been cited to decide court cases.'' In 
plain language, the law does not specify legal consequences if 
a right is abridged, nor does it indicate where redress might 
be pursued.
    In sum, given the fuzziness with which the right of each 
minzu to manage its own internal affairs is defined, the 
paucity of minzu representatives empowered to exercise that 
right in Xinjiang, and the absence of clear legal recourse if 
the right is infringed, one is led to the conclusion that the 
Regional Autonomy Law, as amended in 2001, does little to 
protect minority rights. It is to be hoped that the next 
version does better.
    Thank you, Mr. Foarde.
    The prepared statement of Mr. Bovingdon appears in the 
appendix.]
    Mr. Foarde. Thank you very much, Gardner Bovingdon.
    I am going to let our three panelists rest their voices for 
a moment while I encourage everyone who is attending today to 
continue to check the CECC Web site at www.cecc.gov for not 
only the proceedings and the full transcript of this roundtable 
in a few weeks, but also all of our previous roundtables and 
hearings are posted there, together with staff papers and other 
information about China and about the topic of today's 
roundtable.
    Let us go on, then, to the question and answer session. Our 
staff panel up here will address questions either to one 
specific panelist, or perhaps to all of you. If a question is 
addressed to one panelist, but the others have a comment they 
wish to make, by all means, because we want to hear everybody's 
views.
    Let me begin the questioning by asking David Phillips a 
couple of things. Just for the record, I was struck by your 
comment about the difference in the first time that you visited 
China and talked to some of the same interlocutors, or at least 
similar ones, and this last time. When, for the record, was the 
first time that you had these sorts of conversations with, was 
it United Front Work Department? What year, roughly?
    Mr. Phillips. About 10 years ago, the mid-1990s.
    Mr. Foarde. Do you have a view on to what we could 
attribute the gap between what the law says and the 
implementation of the law, with specific focus on Tibet and 
Tibetans?
    Mr. Phillips. Lack of consultation with affected 
populations, and then lack of recourse by those affected 
populations if there is a gap between the legislative intent 
and the implementation. There are few civil society 
organizations or local government institutions that monitor 
implementation of laws. In cases where they have called 
deficiencies to the attention of local People's Congresses, 
those concerns have largely been unaddressed.
    There should be more civil society participation in 
monitoring legal implementation and a procedure for addressing 
shortfalls that involves the affected populations.
    Mr. Foarde. Useful. Thank you.
    The work that you and your colleague did in coming up with 
a recommendation for the international study group, I thought 
was a fascinating idea. But one thing that I did not hear, and 
I was wondering why, was whether or not there is a role for 
both the U.S. and Chinese Governments in terms of supporting 
this international study group not only with cash, but also 
with in-kind support. I only heard you talking about it being 
underwritten by the United States. Did you give any thought to, 
or were any discussions had, about what the role of the PRC 
central government might be, or even the Tibet Autonomous 
Region Government? Is there a role for an agency or 
organization in the U.N. system?
    Mr. Phillips. To my understanding, the most effective 
bilateral dialogue on human rights has been the dialogue 
between China and Norway. The non-confrontational demeanor of 
Norwegian officials is welcomed by their Chinese counterparts. 
It is difficult for U.S. officials to engage in such 
discussions because of the significance of the political and 
security role that the United States plays worldwide. Chinese 
officials are sensitive to any suggestion that dialogue might 
represent interference in their internal affairs. Just by 
virtue of America's political persona, its intentions can be 
misconstrued. Therefore, the proposal is that, as part of the 
bilateral dialogue on human rights between the United States 
and China, terms of reference would be mutually agreed and then 
a quasi-governmental organization or academic institution would 
carry that dialogue forward.
    The dialogue can involve U.S. and Chinese institutions, but 
it can also be multilateralized. There is extensive expertise 
on global autonomy arrangements in the Asia-Pacific region, as 
well as experts on power sharing formulas in western Europe.
    I think the ultimate objective here is to provide 
information to Chinese counterparts in a way which is benign 
and non-intrusive, so they can benefit from the experience of 
international partners, and then incorporate that experience 
into their own approach and methodology.
    Mr. Foarde. Thank you. Useful. Let me ask Christopher 
Atwood, roughly how much money is the central Chinese 
Government investing in the ecological migration program?
    Mr. Atwood. I have not been able to find figures. 
Apparently, there are figures for the entire region, aggregated 
sums. They are figures that are apparently being dispersed at 
local levels in accordance with local desires, and I have not 
been able to find the totals. Also, the funds for funding 
migration are often lumped locally with all expenses for 
fighting desertification, tree planting, sowing grass, and the 
like.
    Mr. Foarde. So there is no sort of line item in the central 
People's government budget for this particular program.
    Mr. Atwood. Not that I am aware of.
    Mr. Foarde. Interesting. I was interested in your comments 
about the programs that the relocated Mongolians are having 
outside of predominantly Han cities. One of the questions that 
we look into quite a lot here on the Commission staff, is the 
whole problem of hukou, the residency permit system, and 
whether or not it can be modified or whether or not it should 
be scrapped, or what its future might be.
    How does the existing hukou system affect these Mongolian 
migrants?
    Mr. Atwood. Well, these migrants' hukous are transferred to 
their new residency. Of course, the key thing is that they are 
prohibited from returning to the area that they have left 
without permission from the local district from which they have 
been moved, for that five-year period, and even after that only 
with approval. So in this case, the hukou system is functioning 
not to keep people out of the urban areas, but rather to keep 
them out of the rural areas from which they have been moved.
    Another problem is not so much the transfer of hukou, but 
simply the construction of the necessary infrastructure--having 
it in place. The reporting on this is not systematic. 
Certainly, large sums of money are being devoted to building 
housing. Most of these ecological migrants are to be housed in 
adobe houses or sometimes apartment-block style housing. This 
seems to be adequate in some cases and seems to be inadequate 
in other cases.
    The areas of most concern with this are primarily 
employment and adapting to the new environment. Are the 
employment opportunities sufficient in the area to which they 
are being moved? Are they adapting well to them? Also, 
schooling, as I said. Does there exist Mongol-language 
schooling? Is there Mongol-language schooling where they are 
being moved, to largely Han areas?
    I should say that there are a number of relatively small 
town-like settlements in the steppe where the Mongols are also 
a significant percentage of the population, so they are not all 
being moved to the more dominantly Han cities and towns on the 
steppes, such as Shiliin Hot and other urban places. But where 
they are being moved to those dominantly Han areas, it is a 
question of, does the Mongolian culture have a future? In fact, 
this is taking place in a wider context of Mongolian language 
education, and Mongolian autonomous institutions, so to speak, 
facing a real crisis of confidence from the Mongolian 
populations there.
    Mr. Foarde. Thank you. I would now like to pass the 
microphone to Susan Roosevelt Weld, who is the general counsel 
of the Commission. Susan.
    Ms. Weld. Thanks a lot, John. Thank you all for very 
exciting remarks so far. I want to address my first question to 
Mr. Phillips. This great--actually rather admirable--structure 
of laws seems to be quite an advance in the way it provides 
minority rights to people who otherwise have been overwhelmed 
by the Han population in China. It seems, if you compare that 
structure to reality, it is quite unrelated to what you 
otherwise would see in the history of some of the minority 
areas. So I am wondering, how do you put those two things 
together? Can you challenge one with the other? I think to 
myself, civil society in China is beginning, it is hopeful. And 
I remember that Wang Dan says that here is where we should put 
all our energies, into trying to promote civil society in 
China.
    But there are also new laws, for example, the 
Administrative Litigation Law. Could there be some adjustment 
legally so that a minority person in Tibet, for example, could 
use the law to enforce some of this grand structure? A 
structure which seems in all too many ways not to be effective?
    Mr. Phillips. On the subject of minority rights, there is 
no single covenant that enumerates minority rights standards. 
Our research looked at a range of different treaties, 
conventions, national constitutions, and regional documents in 
order to aggregate a standard for minority rights.
    We found, in large measure, Chinese laws have been drafted 
in a way that accommodates international standards. But there 
is a significant gap between the drafting of those laws and 
their execution on the ground. We purposefully did not get into 
an implementation analysis law-by-law. We felt that this work 
is best done by human rights groups. Besides, that was outside 
the mandate of our activity. Clearly, the gap between the 
international standard and the laws is less significant than 
the gap between the laws and their implementation in China.
    On the question of civil society, I think that civil 
society goes hand-in-hand with local government responsibility. 
A great deal of focus, when it comes to governance of China, 
has been on local elections and the development of local 
institutions. China has welcomed international participation in 
monitoring and evaluating local elections.
    I would like to pick up on Mr. Foarde's comments when it 
comes to matters of budgeting. If there was local 
responsibility, transparency, and reporting on the development 
of natural resources--whether they be pastoral, energy or 
mineral--so that there was an accounting as the basis for 
returning some value to the local population, it would serve 
the interests of those populations and be consistent with 
Chinese and international objectives to strengthen local 
governance.
    Ms. Weld. So that would be done by the National Audit 
Bureau, which has just begun raising its head above the water 
last summer. Apparently it is now going to be pushing its 
inspection 
efforts down to lower levels of government. That is a real 
recommendation that I think could be added to your report so 
the National Auditor's Office could go into the autonomous 
areas and see where the money is actually going.
    Mr. Phillips. Yes, that is a worthy recommendation. I would 
not restrict that process entirely to a top-down review. I 
think it is also important and consistent with the assignment 
to an autonomous agency with responsibility for economic 
development and the finances of autonomous governance 
activities that there would be a mechanism that corresponds 
with that audit process that can accurately reflect realities 
on the ground and provide an outlet for civil society concerns 
that are raised locally, so that those concerns are heard with 
national government officials in Beijing.
    Ms. Weld. Thank you.
    Mr. Foarde. It is always important for us to recognize the 
people who do the heavy lifting in organizing these staff-led 
roundtables, so it is my great pleasure to recognize Dr. 
Katherine Palmer Kaup, who is our visiting special advisor on 
minorities issues for this calendar year. She joins us from 
Furman University in Greenville, SC. We are really happy to 
have you, Kate, and thank you for doing this today.
    Ms. Kaup. Great. Thanks. I want to thank you all again very 
much for coming. You had great testimony and I think we have 
learned quite a lot already.
    I would like to pick up on a question raised by Dr. 
Bovingdon on the training of minority ethnic cadres. The 
preface to the Law of Ethnic Regional Autonomy states that the 
law ``embodies the state's full respect for, and guarantee of, 
the right of minority nationalities to administer their 
internal affairs.'' It goes on to say that this requires ``a 
large number of cadres at various levels be trained from among 
the minority nationalities.'' Article 17 then says that posts 
in the people's governments of autonomous areas should be 
``equitably allocated among people of the nationality 
exercising regional autonomy and other minority nationalities 
in the area concerned.''
    Dr. Bovingdon gave us some good figures on the number of 
cadres in government offices, but I would like to pursue that a 
bit further and ask, how are these cadres selected? What role, 
if any, do the local minority communities have in deciding 
exactly who fills these government posts and other official 
positions, including teachers, who are officially part of the 
cadre corps. I raise the question to all three panelists.
    Mr. Bovingdon. Unfortunately, I do not personally have--and 
I am not sure anyone outside China has--very good information 
on the topic you just raised, how officials are recruited above 
the local level. We know that there are village-level 
elections. Now, the story that one hears from ordinary Uighurs 
is that this is essentially a top-down process in which likely 
candidates at lower levels are selected and promoted if they 
act in consonance with Party goals and local government goals. 
But, unfortunately, I cannot give you more detailed information 
on that very important question.
    Mr. Atwood. Particularly above the township level, I would 
have to concur with what Gardner just said. Apart from the 
general impression that it is very much a top-down directed 
process, details would be hard to come by.
    But I would like to emphasize that at the township level in 
Inner Mongolia, the general impression you get from a number of 
researchers--it is also my own personal impression from those 
areas I have visited--that, at the township level, the local 
governments are still dominated by what we can call local 
oligarchies. Most of these date--and many of them are held 
quite continuously by one or two families--back to the Land 
Reform period in the 1940s. This land reform took place from 
around 1947 to around 1948 and was extremely violent and 
extremely divisive, particularly in Eastern and Inner Mongolia, 
and created community divisions that are still active today. 
The populations of Inner Mongolia generally tend to be 
concentrated toward the east, so the eastern areas are the ones 
with the largest populations. That is to say, the people who 
were the victors in that conflict are still there, many of them 
family by blood or related by marriage, and are still more or 
less running those local party and government organizations.
    They form the very basic level for the recruitment of 
Mongol cadres, who mostly come from the countryside, because of 
the largely rural distribution of the Mongol population as a 
whole. So that, I think, is something important to consider 
sort of at the grass-roots level.
    Mr. Phillips. It is no wonder that Dr. Bovingdon did his 
field research at Xinjiang University, because a lot of data 
just simply is not available sitting at an academic 
institution, whether Cornell or Harvard. We were fortunate in 
benefiting from a team of a dozen Chinese-language lawyers who 
worked with us on the academic research. Through the course of 
our research we discovered that we were really just scraping 
the tip of the iceberg. It is particularly important to go out 
to the ethnic Tibetan areas of western China and conduct 
research there, which was beyond our scope at the time.
    The international study group that I proposed should have a 
point of contact in Beijing, but it should also seek to involve 
institutions that are working in the ethnic Tibetan areas of 
western China, because a lot of the data, both factual and 
empirical, is only available when you are on the ground talking 
to local cadres.
    Mr. Bovingdon. I would like, if I may, to correct one 
slight misimpression. I was affiliated with Xinjiang 
University. I actually spent considerable time in local 
villages interviewing ordinary individuals. When I say that I 
do not have detailed information on the processes of selection 
and promotion, what I mean is that I was not able to speak to 
the kind of people who would speak knowledgeably about this 
question. I can say, for instance, that when I went to villages 
I heard such remarks. In fact, I will tell a little story. In a 
village in eastern Xinjiang, I went with a group of Han Chinese 
students who had studied Uighur at Xinjiang University and were 
there for a practicum. They were there to learn how to speak 
the language, since they really could not speak it yet.
    Some local officials remarked, out of the hearing of these 
students, that these would be the future leaders and Party 
Secretaries in the area, and so the village ought to take very 
good care of them and do a good job with them. So here, at 
least, we have anecdotal evidence of the process by which they 
are selected.
    Mr. Atwood. We all seem to be adding little bits. I would 
like to just point out that there is information at the higher 
levels. We have a number of reports of large-scale factionalism 
within the Inner Mongolian Autonomous Region, at the regional 
level of the Inner Mongolian Autonomous Region's Government. 
Generally speaking, the factions are divided by observers from 
published sources into three large groups. Uradyn Bulag's 
recent works are the best source on this issue. But his 
analysis is what I have also heard from other people in Inner 
Mongolia as well.
    One, you have the West Mongol faction which, in the 1980s 
and 1990s, was largely focused around the Yun family, which was 
the family of Ulanfu, Inner Mongolia's party and government 
leader before the Cultural Revolution, and restored afterwards. 
The family had the Yun surname, but Lanfu was a revolutionary 
alias. Then you have the East Mongol faction, which is largely 
from the Mongolian-speaking rural areas of Eastern Inner 
Mongolia, particularly the Khorchin subgroup; and then, 
finally, the local Han faction, the Han of Inner Mongolia.
    Interestingly enough, the Party secretaries in Inner 
Mongolia, since the Cultural Revolution have not been from any 
of these factions. The Party secretaries are always Han, and 
not only just Han, but also not local Han, Han cadres from 
outside the autonomous region.
    So the fact that, for a while in the late 1980s and 1990s, 
the Yun family achieved a sort of domination of a number of 
positions in both the regional and in the prefectural-level 
governments, indicates quite clearly, non-meritocratic 
procedures have been at work in cadre selection. I should say, 
though, since about the mid-1990s, the Yun family has been 
eased out of power almost entirely.
    Mr. Foarde. One more, David. Then we are going to go on.
    Mr. Phillips. All right. One should not underestimate the 
extent to which local interlocutors are intimidated by 
foreigners who come to do research. There are different ways of 
handling that. One, is to identify local researchers with whom 
you can work, but they are usually accountable to their 
institutions in Beijing.
    Another anecdote: When I was negotiating an ethnographic 
mapping project, I presented detailed terms of reference to our 
Chinese partner in the State Ethnic Affairs Commission. I 
thought that all of that was understood and that we were going 
to be able to go forward. I took him out for breakfast 
beforehand, reviewed all the details, and I asked ``Is 
everything clear? '' He paused for about 30 seconds and he 
said, ``I really like the yogurt here in Norway.'' So, it was 
clear that we did not have a deal.
    I then went back to China and they took me out to a lavish 
dinner and presented their counter proposal, which essentially 
was, give us all the money, we will do the research, and then 
report the data to you. I paused for about 30 seconds and said, 
``I really like the noodles here in China.'' [Laughter.] Once 
we had established the principal of equality, we were then able 
to go forward.
    Mr. Foarde. Well done.
    Mr. Phillips. So, one has to be wary of influence by 
central government authorities.
    Mr. Foarde. Thank you. I would now like to turn the 
questioning over to a colleague whose portfolio encompasses a 
lot of the themes that have come up today, such as NGO 
development and hukou reform. Carl Minzner is a senior counsel 
on the Commission staff.
    Carl, over to you.
    Mr. Minzner. Thank you very much, John. To the panelists, 
thank you all for coming here and allowing me to learn about 
Xinjiang, Mongolia, as well as Tibet.
    All of you have raised issues of the implementation of the 
Autonomy Law itself in your respective areas. A discussion of 
these issues with PRC interlocutors is often complicated by 
their tendency to view foreigners who raise these issues as 
attempting to carve up China, to encourage secession, et 
cetera, et cetera. Given this tendency, if we put you in the 
role of an advisor to an American Government official who is 
going to China to talk about these issues, are there any 
specific topics that you think could be raised usefully, given 
the mind-set of the Chinese officials with whom they might be 
interacting?
    Alternatively, is it simply the case that, with that mind-
set of many Chinese officials, there is really no way to 
effectively raise some of these issues you brought up regarding 
the Autonomy Law?
    Mr. Phillips. You used the term ``Tibet'' in your question. 
Let me differentiate the term ``Tibet,'' which is a political 
term that typically refers to the Tibet Autonomous Region and 
ethnic Tibetan areas, which refers to the five provinces where 
Tibetans live. It would be particularly important in those 
discussions to choose one's words carefully. Any autonomy 
arrangement that differentiates the TAR from the other ethnic 
Tibetan areas would not be acceptable to Tibetans worldwide. 
Therefore, a more uniform approach that encompasses the five 
provinces would be imperative.
    Mr. Atwood. To address that, actually, there is another 
terminological issue that, perhaps for opposite reasons, is 
probably very important, that is to distinguish Mongolia from 
Inner Mongolia. To compare, it is like saying ``Mexico'' when 
you mean ``New Mexico.''
    In one sense, ecological migration is a very good issue to 
bring up. I think that while the issue here has, as I have 
tried to emphasize, very important ethnic repercussions, it is 
my belief that the Chinese Government is attempting sincerely 
to deal with a real problem, which is desertification, and they 
are attempting to do so based on science. I think there are a 
number of studies that show that the science upon which they 
are basing this looks pretty faulty. At any rate, it is 
definitely not working. The data are very clear on the fact 
that pasture degradation is not slowing. In fact, it has been 
accelerating since 1984. So, I think that is an area where, 
definitely, there is room for common dialogue, to say ``We have 
these concerns based on a number of pieces of information that 
this is not the best for the people involved.'' Also, ``We have 
this science that indicates that this may not be the right 
approach to dealing with this very real problem.''
    Second of all, I just would like to also emphasize that in 
Inner Mongolia, it is not often realized the extent to which 
Mongol rural community life has actually survived up until this 
period. I think that is worthwhile to emphasize how there are 
still these sort of vesiculated--as Gardner Bovingdon has 
said--communities in Inner Mongolia; many times it is not 
realized the degree to which Mongolian-language education, 
Mongolian control of their own community life in many of the 
arid zones has survived to the present. That is something that 
can be emphasized as a positive feature, which is unfortunately 
being lost due to this new policy.
    Mr. Foarde. Gardner, if you have a comment, please, by all 
means.
    Mr. Bovingdon. Thanks. It strikes me that there is one 
rhetorical approach and one substantive matter that the United 
States side might bring to such an interaction.
    The first thing which I think would be very likely to 
please the Chinese side--although I hasten to add it would be 
extremely unsatisfactory to the international Uighur 
community--would be to approach the Chinese side by 
acknowledging their sovereign control of all the territory of 
China, including Xinjiang, and to say that any suggestions made 
are consistent with the idea that the territory should be 
peacefully administered throughout.
    The substantive issue, it seems to me, would be that of 
building a bridge between the United States' continued 
grappling with how to acknowledge the rights of Native 
Americans, a population that has long been in many territories 
in the United States, and the concerns of the Chinese 
Government.
    One caveat I should add, is that the Chinese Government has 
always, since 1949, been loath to--in fact, refused to--
describe any of the 55 minzu as indigenous, for the very reason 
that they are concerned about the implications of attaching 
indigeneity to the land. But it does seem to me that, beginning 
with a stance of saying that we, too, face such problems of 
politically and ethnically distinct populations within our 
territory might be less likely to rub them the wrong way and 
induce that sense of ``foreigners meddling in our internal 
affairs.''
    Mr. Foarde. Thank you. I would now like to recognize our 
research associate, Laura Mitchell, for questions. Laura.
    Ms. Mitchell. Thank you. Thank you for being here.
    Could you speak about the exploitation of natural resources 
in the autonomous areas? The Regional Ethnic Autonomy Law 
states that compensation should be given when the central 
government extracts natural resources from the autonomous 
areas. Are there guidelines as to how the compensation should 
be divided? Who ultimately has control over the resources?
    Mr. Bovingdon. I will start. There are materials that I 
would like to have with me here, that I do not, to describe how 
the proceeds are apportioned. What I do know, in general terms, 
is that at this point the rich oil and gas reserves of Xinjiang 
are exploited largely for processing and consumption in China's 
interior, and that these resources are not monetized and paid 
for locally. Rather, some part of the taxes from the 
exploitation of these resources is reserved to the local 
government. So in that sense, one cannot say that the locale is 
compensated from the basic proceeds themselves, but rather only 
on the margins. Although I should add that Xinjiang, in the 
estimation of a number of scholars whom I respect, has long 
received subsidies which may be, as Nicolas Becquelin has put 
it, a disguised compensation for resource exploitation.
    I would just like to add that, in the view of many ordinary 
Uighurs, many that I interviewed, there is no connection, in 
their view, between their perception that these resources 
belong to the locality and to the people there and Beijing's 
conception, as written down in the Constitution, that the 
resources really belong to the whole people of China. 
Essentially, there is a substantial gap there, and Uighurs have 
a feeling that they have no capacity to influence how, at what 
price, when, or to what degree resources are exploited.
    One more final point. I apologize. There is also a 
perception among Uighurs that, because there are very few 
Uighurs employed in the gas and oil industries, they lack even 
the chance to receive employment and training from this 
enterprise.
    Mr. Atwood. I would just like to emphasize, all of what 
Gardner just said would be applicable to Inner Mongolia, 
particularly that last part. The extractive industries in Inner 
Mongolia are overwhelmingly Han Chinese dominated. So the towns 
created for these extractive industries, such as Bayan Oboo in 
Southwestern Inner Mongolia, coal towns like Wuhai and so on, 
are up to 98, 99 percent Han Chinese, and that are largely from 
outside of Inner Mongolia in their population.
    I would like to also make another comment that I think 
links up this question with the question of different economy, 
laws, and practices that go along with these sort of resources, 
and also Gardner Bovingdon's point about the question of 
reservations, which might be a way of defusing hostility.
    I just want to emphasize that pre-1947 arrangements--I say 
1947 because the establishment of Chinese Communist Party 
control occurred two years earlier in Inner Mongolia than it 
did in the rest of China--in Inner Mongolia also form a very 
rich fund of experience, which is, unfortunately, not being 
used because it is, of course, excoriated as being feudal, part 
of the whole Qing Dynasty past.
    The strength of these autonomy systems, the traditional 
banner system, was that first of all, it dealt with the 
relative dispersion of the Mongolian population, both by being 
decentralized within itself, and also by having local 
government divided by ethnic status: banners for Mongols, 
counties for Chinese. Now, for a number of functions, this is 
not going to work. But for areas such as 
education and a number of cultural issues, a kind of divided 
local government, with people of different ethnic groups coming 
under different authorities for cultural purposes, may have 
something to offer, and it has been used in a number of other 
countries as well.
    Also, the banners were common property- and resource-
holding corporations. The local Mongols were members of these, 
outsider Mongols and Han Chinese were not. Therefore, 
exploitation of these resources by outsiders involved payment 
of funds which had to be negotiated. This included not only 
just for renting farmland, but also for exploiting salt lakes, 
coal mining, and a number of other things.
    Now, obviously we cannot just reinstitute the pre-1947 
system, but this is a font of institutional experience which I 
think could also be fruitfully included, especially because it 
is something that the Mongols themselves have done, have 
experience of, know, and which, to a certain extent, still has 
some kind of legitimacy or memory among the Mongols.
    Finally, about natural resources. The other thing left to 
consider is environmental degradation. For example, in the 
suburbs of Baotou, one of China's largest steel metropolises, 
the herding areas of Agarautai have extensive air pollution, 
and the Mongols there feel that it is degrading the quality of 
the pastures.
    We also have the issues of eminent domain, with recent 
reports of a number of abuses of the power of eminent domain, 
people being moved off for power plants, coal mines, and other 
industries in Inner Mongolia. These new institutions are going 
to move herders off the land. So, this is another issue that 
has to be brought into play when we talk about natural 
resources.
    Mr. Foarde. David, if you have a comment, please go ahead.
    Mr. Phillips. For each of the ethnic Tibetan areas, there 
are implementation measures that call on local authorities to 
bear responsibility for managing and protecting natural 
resources. In the TAR, laws demand ``rational'' development. 
There are stipulations that prescribe a certain percentage of 
mineral development, gold and silver, that is extracted be set 
aside for decorative uses by Tibetans or for religious 
iconography.
    When it comes to the training of local cadres involved in 
economic development, laws in the TAR call for modifying the 
admission score of ethnic Tibetans. There is an active 
affirmative action program which seeks to promote indigenous 
participation.
    There are extensive international reports that parts of the 
TAR are used as a dumping ground for radioactive material via a 
contract that the Chinese Government has entered into with 
other countries for disposal of nuclear waste. That clearly is 
being done without the consent of local authorities.
    If I could return to your earlier question, Dr. Weld, and 
associate myself with Professor Bovingdon. The United Nations 
really does not have a significant role to play in these 
matters.
    When it comes to the United Nations, Chinese officials 
focus on the Human Rights Commission, special rapporteurs, and 
Chapter VII intervention. So, I do not think that the right 
institutional mechanism for the kinds of cooperative 
arrangements I have proposed involve U.N. agencies. However, 
that does not mitigate the importance of multilateralism in 
technical cooperation.
    Mr. Foarde. Thank you. Really useful. Let me sneak in a 
couple of very quick questions and see if we can give everybody 
another chance to ask a question before we break up.
    Gardner Bovingdon, I was really struck by one of the things 
that you said about the official government policy, among other 
things, being to foster the ``excellent parts'' of local 
culture. Is the term ``excellent parts,'' or what constitutes 
``excellent parts,'' defined anywhere in law or regulation as 
far as you know?
    Mr. Bovingdon. It is an important question to which I do 
not have a satisfactory answer. All I have is speculations. It 
is possible that there are legal rubrics that define what 
constitutes excellent parts of a culture. I can tell you what 
my suspicions are based on extensive field experience in 
Xinjiang. What this small turn of a phrase does is enable 
officials to object to the fostering of certain aspects of what 
are regarded as Uighur culture, or the culture of any minority 
group in China, in the sense that this is intended to say that 
this is not a blanket approval of support for all kinds of 
culture. Some may be regarded as retrograde.
    Here, I would like to relate my comments to what Professor 
Atwood has previously said about ``scientific'' versus 
``unscientific'' farming. Once again, the definition of these 
terms is in the eye of the beholder, and in this case the 
beholder is also the power holder. Therefore, I regard this as 
kind of an insidious qualification to the original term.
    Mr. Foarde. Thank you. Professor Atwood, I wanted to pick 
up on something that you talked about implicitly, but we did 
not really ask a specific question about it. One of the things 
that has always interested me, is how much contact and 
influence across the border into Mongolia is there? And how 
many contacts back and forth are there from Inner Mongolia and 
Mongolia, particularly with respect to nationalities issues?
    Mr. Atwood. Yes. That is a really important issue, 
definitely one not to bring up when you are talking with 
Chinese Government officials. Although I will say, in fact, in 
some ways the situation turned out a lot better for the Chinese 
authorities than they were expecting in the late 1980s.
    Inner Mongolia and Mongolia had extensive contacts in the 
1920s, were separated by politics in the 1930s and 1940s, and 
had controlled, but still fairly extensive, contacts again in 
the 1950s, and after that were again separated during the Sino-
Soviet split. The normalization of relations between Mongolia 
and China, along with the Soviet Union and China, in 1989 
opened the way for people on both sides of the border to come 
back into contact.
    That produced a couple of strikingly interesting reactions. 
First of all, there was the expected creation of organizations 
in independent Mongolia to promote Inner Mongolian human rights 
and nationalism. These remained, however, very small. The 
Mongolian Government has been extremely strict about 
acknowledging explicitly, without any reservation, that they 
respect the territorial integrity of China, acknowledge one 
China, all of those things. But as a democracy, they do not 
suppress the existence of these various groups supporting Inner 
Mongolian nationalism, though none of them are particularly 
active. So, that was the thing that China did not like.
    For example, there is a recent report about the Mongolian 
heavy metal band Hurd, which was going to be playing in Hohhot. 
They had done it a couple of times before, but this time the 
Inner Mongolian Government prevented the students from 
attending that concert. I think it was because the latest CD 
had a title song called ``Born in Mongolia,'' and it went on 
from there with very nationalistic lyrics.
    On the other hand, though, and more strongly, the Inner 
Mongolians and the Mongolians, over their period of separation, 
have become very different in their whole viewpoints and way of 
life, so there was quite a bit of mutual disillusionment there 
with that situation. The constituency for pan-Mongolism in 
Mongolia is now actually shallow, extremely shallow. So in a 
sense there is quite a bit of contact, but it has only 
exacerbated the sense of ``these people are different from us'' 
on both sides. Inner Mongolians and the Mongolians do not 
really feel themselves to be a part of the same political 
community in the same way that they were hoping to in the mid-
1980s.
    Mr. Foarde. Interesting. Thank you.
    Mr. Phillips. It sounds as though Hurd has taken a number 
from Bruce Springsteen's playlist.
    Mr. Foarde. Susan, do you want to pick up the questioning?
    Ms. Weld. Sure. This is a little bit outside what we have 
been talking about so far. I am interested in some of the 
trafficking in women and children that has been going on in 
China recently. I noticed that there was a case where one of 
these gangs purchases babies from hospitals locally and puts 
them into a sort of trafficking flow throughout China to 
another place where they want to buy the babies. Is this a 
problem in Mongolia? It does not seem to be something that 
happens in ethnic areas, perhaps because their preference for 
sons is not as strong as in the Han areas. Does anybody have 
any answers on that?
    Mr. Atwood. The only thing is early in the 1960s, the 
government placed orphaned Chinese children from Shanghai with 
Inner Mongolian families, and they have grown up to be 
Mongolian-speaking herders, registered as Mongols, but of Han 
Chinese origin, Shanghai origin. But, no, I do not believe 
there is any particular traffic.
    Mr. Foarde. Let me pass it on to Kate for another question.
    Ms. Kaup. Great. Thanks.
    I am struck, listening to all of you, at how differently 
minority policy has been applied in different areas. My own 
fieldwork has been in Southern China among the Zhuang and the 
context is very different there. So I would like to direct my 
question specifically to Gardner, and then ask David Phillips 
to expand on the Tibetan case as well.
    A number of Xinjiang analysts--including Western analysts, 
human rights activists, Uighurs within Xinjiang, as well as 
Uighurs in exile--have noted an increase in central controls in 
Xinjiang, particularly since 2000.
    These analysts have noted increased Chinese Government 
violations of Uighurs' rights of expression, religious 
practice, and of their right to use their own language. They 
have noted an increase in arrests of Uighurs who question the 
state's minority policy. Most of these analysts point to an 
increase in governmental controls since the ``Develop the 
West'' campaign was launched in 2000, and they note a major 
crackdown, particularly on Muslims, in the post-September 11 
time period.
    I would like to ask, first, if you have noticed similar 
trends. Second, given--I think it is a given--increased 
tensions at the moment between the Han Chinese and the minority 
groups, what concrete steps can be taken to ease these 
tensions?
    Specifically, if you had a chance to speak to the Chinese 
Government, how would you encourage them to loosen controls and 
reassure them that doing so is not going to lead to increased 
separatist activity or support for independence?
    Mr. Bovingdon. That is a full plate of questions.
    Let me agree, first of all, with the findings of other 
analysts that you mentioned, that there has clearly been 
increased crackdown, however we want to put it, political 
repression, in Xinjiang since 2000.
    In addition to the matters that you took up, I would also 
add the fact that there have been book burnings on several 
occasions, something I find astounding in the 21st century.
    Very recently, within the last month and a half, a Uighur 
poet, Nurmamet Yasin, was thrown in prison and all copies of an 
allegorical short story he wrote about a pigeon were destroyed. 
It seems to me that this, along with the recent increase in the 
arms given to police and other peacekeepers in Xinjiang, and 
the fact that over the last five years there have been several 
clear initiatives to recruit low-level officials from the 
interior of China, often in terms that make it clear they 
specifically want Hans--that all these signs point to a concern 
in Beijing with increasing security in Xinjiang, and in turn 
officials understand increasing security to mean increasing 
repression, something I think we would all agree is lamentable.
    I think one problem with convincing Chinese officials that 
decreasing, rather than increasing, repression is likely to 
have a beneficent outcome, is that hardliners who have always 
thought that decreased control leads to chaos are very much in 
the ascendant in the political climate in China today. Wang 
Lequan, who is the Party Secretary of Xinjiang and who also 
sits on the highest political body in Beijing, has long 
believed this himself.
    I think one strategy would be to try to reach the softline 
constituency and point out that in fact, in the 1980s, in the 
first few years of the reforms, while there were a few episodes 
of ethnic riots, this was actually not only a fairly free time, 
but a fairly peaceful time. Economic growth was high, Uighur 
cultural production was high, there was a lot of satisfaction 
in the memories of many of my informants with increased 
cultural freedoms. I think a case can be made that carefully 
managed decreased repression, rather than increased repression, 
could lead to the kind of good outcomes that we saw in the 
1980s.
    Add to this that the kinds of political infiltration that 
the Chinese Government feared coming from Central Asia are less 
likely to happen with the Taliban out of the way in 
Afghanistan, with the climate in Pakistan changing. These, by 
the way, are areas directly contiguous with southwest Xinjiang. 
I think a case could be made that it is far less likely that 
decreasing repression will lead to the infiltration of 
undesirable ideas, particularly religious radicalism, et 
cetera.
    Mr. Foarde. David, do you want to pick that up with respect 
to Tibet?
    Mr. Phillips. Sure. Just to respond, briefly, to Susan 
Weld's interest on the family matter. One child-one family 
rules apply in the ethnic Tibetan areas, but there are 
provisions for a second child in certain instances, 
particularly in Sichuan, and prefectures in Yunnan and Ganzi. 
There are also arrangements for a third child under controlled 
circumstances.
    Related to Dr. Kaup's question, in May of 2004 the Chinese 
Government issued a white paper on its Tibet policy. If you 
read that paper, it sounded like a throwback to hardline 
approaches of the 1960s. If I were a Chinese official 
contemplating the third visit by overseas Tibetans to Beijing, 
I would also have laid down a hard line and used that as a 
point of departure for discussion. The fact that the third 
visit by the Dharamsala representatives followed the issuance 
of that white paper suggests to me that Chinese officials treat 
these discussions with greater and greater importance.
    In terms of preventing independence, it is essential that 
discussions about cultural and religious autonomy include the 
element of finality. If there is an arrangement between the 
Dalai Lama's representatives and Chinese officials, 
implementation needs to be monitored. Moreover, there can be no 
exit clause that allows the arrangement to be revisited in the 
future, unless there are serious violations with 
implementation. The question of finality is going to be a very 
important consideration in Beijing if they want to address the 
Tibetan question once and for all. We emphasize elements of 
finality in all of our discussions with Chinese officials.
    Mr. Foarde. Thank you. Let us take a couple more minutes 
and ask Carl Minzner to ask another question.
    Mr. Minzner. Thank you very much, John.
    In the eastern areas of China, with regard to migrants 
coming into urban areas, one thing that you see is the 
emergence of a socially excluded migrant underclass. Based on 
my reading of some of your written statements, it seems to me 
that both economic development in China, as well as direct 
Chinese policies, are effectively leading to the breakup of 
previously cohesive, small rural communities in all of the 
areas that you all focus on, and resettlement, or migration of 
those people into urban areas.
    Could you first tell me if you think that is an accurate 
assessment, and, second, perhaps speculate a little bit on the 
social implications of that with regard to the areas that each 
of you study?
    Mr. Atwood. Yes. First, I would say that that is an 
excellent summary of the issue. I like the way, also, that you 
divided it into both economic forces working during 
development, and also the government force. I think that is 
really important to emphasize that both of those are occurring 
at the same time and they are both pushing largely toward the 
same end. This is, exactly as you said, that there is going to 
be a significant urbanization of the minority populations that 
have previously been largely rural.
    This is particularly important for the Mongols who, unlike 
the Uighurs, do not have the tradition of special ethnic 
enclaves or wards within cities. Inner Mongolia has not had 
special urban wards of Mongol minorities within the cities. The 
cities have been almost exclusively Han enclaves.
    So that process you described is occurring, and I think 
that is the worry, that it will lead to the creation of 
something that has not existed before, a kind of Mongol shanty 
town. It would be a kind of housing project neighborhoods--
adobe houses or apartment blocks as the case may be--for 
Mongols out on the edges of cities and district towns in Inner 
Mongolia. That is the worry. But that is exactly where 
indications seem to be showing where we are heading, both the 
economic factors and also the government's policy.
    Mr. Bovingdon. I would concur. You see similar processes in 
Xinjiang. I would just add one extra note that is perhaps a 
little bit far from what you were talking about, but I think 
will in fact compound the problem that you described.
    In Urumqi and Kashgar, the government has taken the 
initiative, and I suppose in some cases it is private money as 
well, to tear down long-existing city blocks and districts and 
replace them with new high-rise apartments.
    On the one hand, this seems to be a good outcome in the 
sense that you have more spaces in which people can live. The 
problem with them is, of course, that they are priced far 
beyond the reach of the former residents. I am not aware of any 
special arrangements being made for the former residents, other 
than telling them that they can get into this apartment if they 
can afford it.
    The reason that I mention this issue is because I think we 
are seeing already, and will see more in the future, not only 
the arrival of people coming off the farms who can no longer 
find gainful employment there, but also the dispersion of 
previously core urban populations in the very ethnic 
neighborhoods Chris was just referring to, now being forced 
themselves into situations of uncertain safety and quality.
    Mr. Foarde. David.
    Mr. Phillips. With consideration for the Commission's 
practice of ending the roundtable on time, I will defer an 
answer.
    Mr. Foarde. All right. Then let me give the last set of 
questions this afternoon to Laura Mitchell.
    Ms. Mitchell. Recently, the Renewable Resources Law was 
passed, in part, to address environmental degradation that has 
accompanied development and, in part, to develop sources of 
energy in rural and remote areas.
    A recent Beijing Review article mentioned that, in 
Xinjiang, Inner Mongolia, and Tibet, there have been a number 
of projects to develop the use of natural resources such as 
hydro power, solar power, and wind power. How have the projects 
impacted the people living in the areas?
    Mr. Atwood. The development of renewable resources.
    Ms. Mitchell. Right. Right.
    Mr. Atwood. The use of wind power, in particular, was a 
kind of beacon of appropriate small-scale technology in Inner 
Mongolia, and also, in Mongolia now as well. Basically, you 
have windmills that are portable and are, therefore, compatible 
with nomadism, if one is still nomadic or transhumant, and is 
able to give people in very remote areas some kind of way of 
generating electricity for light, for operating a radio or 
television, and other things. So, it has played a significant 
role and it has actually a relatively important source of 
electricity for a number of people on the grasslands.
    I should say, of course, Mongols resettled in these migrant 
communities do not need windmills any more. They will get power 
from the power grids of the towns and cities where they are 
being settled.
    Mr. Foarde. Either of the other panelists, please go ahead.
    Mr. Phillips. Just given the altitude of western China and 
the ethnic Tibetan areas, portable photovoltaic solar 
technology has been widely used for remote electrification. In 
addition, solar cookers have been used as a substitute for 
hydrocarbon fuel sources.
    I would add forests to your list a non-renewable resources. 
There has been considerable deforestation in western China. 
Integrating renewable energy technologies may be a remedy to 
deforestation.
    Mr. Bovingdon. A last word. I too worry about ecological 
devastation and exploitation of non-renewable resources. Since 
a number of you have visited Xinjiang, I just want to 
acknowledge something all of you must have seen from the train 
cars, which is an enormous windmill farm outside of Urumqi: 
beautiful, tall, slender stalks on which state-of-the-art 
windmills are to be found. I applaud such an initiative to try 
to generate power in a renewable and non-polluting way.
    Mr. Foarde. Thank you all very much.
    Probably the most gratifying thing about doing these issues 
roundtables over the last 38 months has been the very high 
quality of the conversation that we have had, and we have 
continued our excellent record this afternoon. This result is 
owing not only to the excellent staff work of my colleagues 
here, but particularly to the quality of the panelists. So, 
thank all three of you very much on behalf of Senator Chuck 
Hagel and the Members of the Congressional-Executive Commission 
on China.
    But since we have gone a few minutes over our allotted time 
to keep the conversation going, let me now gavel this one to a 
close with our thanks. Thanks to everyone who attended. Good 
afternoon.
    [Whereupon, at 3:38 p.m. the issues roundtable was 
concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of David L. Phillips

                             APRIL 11, 2005

    Thank you for the opportunity to address the Congressional 
Executive Committee on China's roundtable on ``China's Regional 
Autonomy Law: Does it protect Minority Rights.''
    I am submitting for the record a copy of Legal Standards and 
Autonomy Options for Minority Rights in China: the Tibetan Case.\1\ 
Also submitted for the record is a compilation analysis of 161 laws and 
regulations establishing autonomy in the ethnic Tibetan areas of 
Western China including the provinces of Sichuan, Yunnan, Gansu, 
Qinghai and the Tibet Autonomous Region (TAR).
---------------------------------------------------------------------------
    \1\ Harvard University, Belfer Center for Science and International 
Affairs at the John F. Kennedy School of Government, September 2005.
---------------------------------------------------------------------------
    The report offers a directory of Chinese laws and regulations on 
minority rights and autonomy. It:

<bullet>  Provides an assessment of existing national, provincial and 
        prefectural level Chinese laws and regulations.
<bullet>  Analyzes and outlines the existing international standards 
        for treatment of minorities and autonomy arrangements.
<bullet>  Offers a menu of autonomy options, based on examples of 
        existing autonomy models from around the world.
<bullet>  Itemizes the full list of Chinese laws and regulations 
        reviewed for the report.
<bullet>  Describes 22 other illustrative autonomy arrangements.

    Scholarship should not exist in a vacuum. To have practical 
application, it must take into account the political context. To this 
end, Mr. Theodore C. Sorensen and I visited Beijing in June 2004. The 
purpose of our trip was to assess the views of Chinese counterparts on 
Tibetan issues. Legal Standards and Autonomy Options for Minorities in 
China: The Tibetan Case is designed as a technical resource for 
strengthening ethnic minority rights in China, with specific focus on 
Tibetans in China, within the context of Chinese law. It is published 
in English and Chinese. Research included contact with Chinese 
officials, scholars and think-tank representatives. Ongoing cooperation 
with Chinese counterparts and dissemination strategies are being 
explored.
    Based on our discussions, we determined that Chinese officials 
increasingly appreciate that effective autonomy would enhance, not 
impair, China's sovereignty and territorial integrity while reinforcing 
its stated commitment to the rule of law. They welcomed our view that a 
uniform approach to autonomy in the ethnic Tibetan areas of the TAR, 
Sichuan, Yunnan, Gansu and Qinghai provinces would enhance stability 
and prospects for development. Chinese officials, think-tank 
representatives and scholars all affirmed the need to:

<bullet>  ``Improve'' the country's legal system.
<bullet>  ``Perfect'' arrangements for ethnic autonomy.
<bullet>  ``Adapt'' measures to local conditions.
<bullet>  ``Conform'' laws and regulations on minority rights to 
        international standards.

    Today's context provides an opportunity for progress on the Tibetan 
issue. We are encouraged by the direct contact between Chinese 
officials and Tibetan representatives from Dharamsala who have visited 
China three times between 2002 and 2004. A spokesman for the Chinese 
Ministry of Foreign Affairs affirmed, ``This method proves there is 
contact between the central government and the Dalai Lama. The lines of 
communication are open.'' \2\
---------------------------------------------------------------------------
    \2\ The Washington Post, June 14, 2004, ``World in Brief,'' p. A20.
---------------------------------------------------------------------------
    Tibetans also recognize that autonomy is also the best and most 
realistic way to preserve Tibetan culture. The Dalai Lama has 
reiterated his clear and unambiguous support for the ``one-China 
line.'' He recently went one step further by giving up demands for 
Tibetan self-government so long as Tibet's culture, spirituality, and 
environment are preserved. He stated, ``I am not in favor of 
separation. Tibet is a part of the People's Republic of China. Tibetan 
culture and Buddhism are part of Chinese culture.'' \3\ He also 
recognized the ``broader interest'' of Tibetans suggesting that 
Tibetans would benefit from China sharing the benefits from its rapid 
economic growth while Tibetan Buddhism could enhance ``internal 
values'' by contributing to China's spiritual identity. The Dalai 
Lama's statements create a unique opportunity to deepen discussions 
about autonomy for ethnic Tibetan areas in China paving the way for his 
return to Lhasa in the capacity as a spiritual leader.
---------------------------------------------------------------------------
    \3\ South China Morning Post, March 14, 2005, ``Dalai Lama yields 
ground on Tibet self-rule,'' p. 1.
---------------------------------------------------------------------------
    Objective analysis of the existing body of China's laws on ethnic 
minority rights and autonomy is the essential starting point for 
evaluating enhanced autonomy options. Following is an analysis of 
Chinese national, provincial, prefectural, and county laws and 
regulations in areas of governance, economy, and culture. The analysis 
encompasses ethnic Tibetan areas including the TAR, six autonomous 
prefectures in Qinghai, one autonomous prefecture in Yunnan, one 
autonomous prefecture and one autonomous county in Gansu, and two 
autonomous prefectures and one autonomous county in Sichuan.

          China's Laws on Autonomy and Ethnic Minority Rights

    After the revolution of 1949, the Chinese Communist Party developed 
legal provisions for autonomy, recognizing the advantages of providing 
minority groups with self-government. China has since added to this 
body of laws. China's official stance has always been that minorities 
share equal legal status with the majority Han, and that minorities 
should exercise autonomous self-government to protect their unique 
culture.

                               GOVERNANCE

National laws and regulations on self-governance of minorities
    Article 4 of the Constitution of the People's Republic of China 
(PRC) sets forth the fundamental policy of the State with respect to 
ethnic groups. It indicates that all ethnic groups are equal. The State 
guarantees the legal rights and interests of all minorities and 
safeguards and protects the equality, unity, and relationships of all 
ethnic groups. Article 4 also prohibits discrimination against and 
oppression of ethnic groups and prohibits activities that destroy the 
unity of ethnic groups or create ethnic separatism. In accordance with 
the ``special characteristics and needs'' of all minorities, the State 
shall assist minority areas to accelerate the development of their 
economy and culture. Autonomy is to be implemented in areas where 
minorities are concentrated. All autonomous areas are an integral part 
of the People's Republic of China. Each ethnic group has the freedom to 
use and develop its own oral and written language and to maintain or 
``reform'' its own customs and traditions.
    The people's congresses of ethnic autonomous areas have the power 
to formulate regulations in accordance with the political, economic, 
and cultural characteristics of the local minorities. Such regulations 
are to be submitted to the Standing Committee of the National People's 
Congress for approval before they become effective. Regulations of 
autonomous prefectures and autonomous counties are to be submitted to 
the standing committee of the people's Congress of the province or 
autonomous region for approval before becoming effective and are to be 
submitted to the Standing Committee of the National People's Congress 
for the record.\4\ The Standing Committee of the National People's 
Congress has the authority to abolish any local laws or regulations 
formulated by state-level agencies in the provinces, autonomous 
regions, or municipalities directly under the central government that 
conflict with the Constitution or other laws or administrative 
regulations.\5\
---------------------------------------------------------------------------
    \4\ Constitution,  116. In contrast, the people's congresses and 
their standing committees of provinces and municipalities directly 
under the central government need only submit their local legislation 
to the Standing Committee of the National People's Congress for the 
record--Constitution  100.
    \5\ Constitution,  67(8).
---------------------------------------------------------------------------
    Several other national instruments provide for the equal rights of 
minorities to self-governance while protecting the unity of the 
State.\6\ All minorities are to enjoy the same freedoms of thought, 
expression, assembly, religion, movement, association, communication, 
and residence as are enjoyed by the Han people in the same locality.\7\ 
Like the Han majority, minorities are entitled to vote, join groups, 
pursue any profession, and use their own languages when instituting or 
defending lawsuits or in any investigation conducted by a procuracy.\8\ 
The development of a minority's culture and economy are to gradually 
eradicate inequality,\9\ but ``reforms'' of a minority's customs and 
traditions cannot be imposed if a majority of the group wishes 
otherwise.\10\ Observance of minority holidays, dietary restrictions, 
and religious practices must be allowed,\11\ and complaints of 
discrimination are to be handled by the people's governments.
---------------------------------------------------------------------------
    \6\ Decision of the State Council Regarding the Guarantee of the 
Equality of Rights of Minorities Living in Dispersed Communities 
(adopted on February 22, 1952, by the 125th Session of the State 
Council, and issued on August 13, 1952), the Report of the State Ethnic 
Affairs Commission (transmitted on October 12, 1979, by the Central 
Committee of the Chinese Communist Party and the State Council), and 
the Law of the People's Republic of China on the Autonomy of Ethnic 
Areas (effective October 1, 1984, adopted at the Second Session of the 
Sixth National People's Congress and amended on February 28, 2001, by 
the 20th Session of the Standing Committee of the Ninth National 
People's Congress).
    \7\ Decision of the State Council Regarding the Guarantee of the 
Equality of Rights of Minorities Living in Dispersed Communities 
(adopted on February 22, 1952, by the 125th Session of the State 
Council and issued on August 13, 1952),  1.
    \8\ Supra note 13,  4; PRC Autonomy Law,  47.
    \9\ Report of the State Ethnic Affairs Commission (transmitted on 
October 12, 1979, by the Central Committee of the Chinese Communist 
Party and the State Council), Part 2.
    \10\ Supra note 15, Part 3.
    \11\ Supra note 15, Parts 3 and 4.
---------------------------------------------------------------------------
    The Law of the People's Republic of China on the Autonomy of Ethnic 
Areas (the PRC Autonomy Law) requires that areas where minorities are 
concentrated are to implement regional autonomy through autonomy 
agencies at the regional, prefecture, and county levels.\12\ Autonomy 
agencies must place a priority on the interests of the State as a 
whole, especially the unity of the State, while safeguarding and 
developing the equality and unity of minorities and the socialist 
minority relations of mutual assistance.\13\ Discrimination against any 
minority is forbidden.\14\
---------------------------------------------------------------------------
    \12\ The autonomy agencies are the people's congresses and the 
people's governments.
    \13\ Supra note 13, Part 2 and Part 3; PRC Autonomy Law,  5, 7, 
9.
    \14\ PRC Autonomy Law,  9.
---------------------------------------------------------------------------
    The PRC Autonomy Law contains provisions relating to the right of 
autonomy agencies to establish schools; reduce or waive taxes; 
establish local commercial banks and credit cooperatives; strengthen 
culture by developing minority literature, art, news, publishing, 
films, and television; protect historically significant minority sites 
and relics; keep and develop ``excellent'' aspects of minority culture; 
and establish border trade. Decisions or orders relating to an 
autonomous area must be ``suitable'' to circumstances in the area.\15\ 
If any ``higher level state agency'' decision is not appropriate for 
the actual circumstances of a locality, an autonomy agency may request 
that such state agency change the decision or request a cessation of 
its implementation. The state agency is required to respond within 60 
days after receipt of the request.\16\ Popular consultations are 
neither forbidden nor required.
---------------------------------------------------------------------------
    \15\ PRC Autonomy Law,  54.
    \16\ PRC Autonomy Law,  20.
---------------------------------------------------------------------------
Regional and local laws and regulations on self-governance of 
        minorities
    TAR regulations\17\ have been formulated to ``standardize'' 
legislation-making activities and improve the procedures for lawmaking. 
Regulations define the authority of the people's Congress and its 
standing committee, prescribing proposal-making procedures for local 
regulations in Lhasa, and identifying which authorities have the power 
to interpret legislation. Lhasa regulations provide that draft 
legislation be submitted to the TAR People's Congress or the Lhasa 
People's Congress in both Tibetan and Chinese languages.\18\
---------------------------------------------------------------------------
    \17\ Regulations of the Tibet Autonomous Region on Legislation 
(effective July 1, 2001; adopted by the Fourth Session of the Seventh 
People's Congress of the TAR on May 21, 2001).
    \18\ Regulations on the Formulation of Local Laws by Lhasa 
Municipality (effective June 1, 2001; adopted on March 25, 2001, by the 
Fifth Session of the Seventh People's Congress of Lhasa Municipality 
and approved on May 8, 2001, by the 19th Session of the Standing 
Committee of the Seventh People's Congress of the TAR),  47.
---------------------------------------------------------------------------
    The autonomy regulations of Tibetan autonomous prefectures in 
Gansu, Qinghai, and Sichuan Provinces provide for local implementation 
by the people's congresses and people's governments of the PRC Autonomy 
Law. In addition, the prefectural regulations provide for translation 
agencies to support the use and development of the Tibetan language\19\ 
and require Chinese cadres\20\ to learn Tibetan.\21\ When studying and 
using their own language, minority cadres ``should'' also study 
Putonghua and the Chinese written language.\22\
---------------------------------------------------------------------------
    \19\ E.g., Certain Provisions of Gansu Province on the 
Implementation of the Law on the Autonomy of Ethnic Areas (adopted on 
September 20, 1988, by the Fourth Session of the Standing Committee of 
the Seventh People's Congress of Gansu Province) (the ``Gansu Autonomy 
Regulations''),  24; Autonomy Regulations of Hainan Tibetan Autonomous 
Prefecture (effective October 1, 1987; adopted on April 25, 1987, by 
the Second Session of the Eighth People's Congress of the Hainan 
Tibetan Autonomous Prefecture and approved on July 18, 1987, by the 
27th Session of the Standing Committee of the Sixth People's Congress 
of Qinghai Province) (the ``Hainan Autonomy Regulations''),  15.
    \20\ A ``cadre'' is a Party or government official.
    \21\ E.g., Hainan Autonomy Regulations,  56.
    \22\ E.g., Hainan Autonomy Regulations,  56.
---------------------------------------------------------------------------
    The regulations for the Sichuan prefectures in most cases contain a 
provision that religion may not be used to ``interfere'' with 
marriage.\23\ Investigators and judicial staff may not concurrently 
hold the position of interpreter.\24\ Regulations call for population 
planning to promote good health and the improvement of the 
population.\25\ The development of minority medicine should be pursued 
by autonomy agencies or by research agencies established by autonomy 
agencies.\26\ Generally, the regulations specify that the head of the 
prefecture government and the chairman or vice chairman of the standing 
committee of the people's congresses are to be Tibetan, and that 
leadership positions in the people's courts and people's procuracies 
are also to include minorities.\27\ Several regulations also require 
the suppression of ``majority racism,'' particularly ``Han racism'' and 
``regional racism.'' \28\
---------------------------------------------------------------------------
    \23\ Autonomy Regulations of Haibei Tibetan Autonomous Prefecture 
(effective October 1, 1987; adopted on April 25, 1987, by the Second 
Session of the Eighth People's Congress of the Haibei Tibetan 
Autonomous Prefecture and approved on July 18, 1987, by the 27th 
Session of the Standing Committee of the Sixth People's Congress of 
Qinghai Province) (the ``Haibei Autonomy Regulations''),  9; Autonomy 
Regulations of Huangnan Tibetan Autonomous Prefecture (effective March 
1, 1988; adopted on October 12, 1987, by the Second Session of the 
Ninth People's Congress of the Huangnan Tibetan Autonomous Prefecture 
and approved on December 26, 1987, by the 30th Session of the Standing 
Committee of the Sixth People's Congress of Qinghai Province) (the 
``Huangnan Autonomy Regulations''),  11; Autonomy Regulations of Yushu 
Tibetan Autonomous Prefecture (effective July 25, 1988; adopted on 
November 19, 1987, by the Third Session of the Seventh People's 
Congress of the Yushu Tibetan Autonomous Prefecture and approved on 
April 20, 1988, by the Second Session of the Standing Committee of the 
Seventh People's Congress of Qinghai Province) (the ``Yushu Autonomy 
Regulations''),  10; Autonomy Regulations of Guoluo Tibetan Autonomous 
Prefecture (effective January 1, 1991; adopted on April 16, 1990, by 
the Sixth Session of the Eighth People's Congress of Guoluo Tibetan 
Autonomous Prefecture and approved on November 3, 1990, by the 17th 
Session of the Standing Committee of the Seventh People's Congress of 
Qinghai Province) (the ``Guoluo Autonomy Regulations''),  9; Autonomy 
Regulations of the Haixi Mongolian and Tibetan Autonomous Prefecture 
(effective October 1, 1987; approved on July 18, 1987, by the 27th 
Session of the Standing Committee of the Sixth People's Congress of 
Qinghai Province and amended on August 28, 1992, by the 28th Session of 
the Standing Committee of the Seventh People's Congress of Qinghai 
Province) (the ``Haixi Autonomy Regulations''),  5.
    \24\ Haibei Autonomy Regulations,  21; Huangnan Autonomy 
Regulations,  21.
    \25\ Haibei Autonomy Regulations,  52; Huangnan Autonomy 
Regulations,  59; Yushu Autonomy Regulations,  54; Guoluo Autonomy 
Regulations,  54; Haixi Autonomy Regulations,  50.
    \26\ Haibei Autonomy Regulations,  51; Huangnan Autonomy 
Regulations,  58; Yushu Autonomy Regulations,  53; Guoluo Autonomy 
Regulations,  53; Haixi Autonomy Regulations,  49.
    \27\ Haibei Autonomy Regulations,  11, 13, 20; Huangnan Autonomy 
Regulations,  13, 14, 20; Yushu Autonomy Regulations,  11, 12, 19; 
Guoluo Autonomy Regulations,  11, 12, 14; Haixi Autonomy Regulations, 
 12, 14.
    \28\ Hainan Autonomy Regulations,  54; Haixi Autonomy Regulations, 
 53.
---------------------------------------------------------------------------
    The Guoluo Autonomy Regulations require that at least one half of 
the members of the standing committee of its people's Congress be 
Tibetan.\29\ The Huangnan Autonomy Regulations require the autonomy 
agencies to adopt measures to gradually change, as determined by the 
masses, ``old concepts and customs'' that obstruct progress toward a 
socialist life. They prohibit anyone from, among other things, using 
religion to ``interfere with'' the promotion of technology or to coerce 
individuals into making contributions to religious institutions.\30\
---------------------------------------------------------------------------
    \29\  11.
    \30\  8, 11.
---------------------------------------------------------------------------
National laws and regulations on executive governance
    National laws set quotas for minority representation in the 
National People's Congress.\31\ Article 65 of the Constitution also 
provides that the Standing Committee of the National People's Congress 
is to have an ``appropriate'' number of minority representatives. To 
this end, provisions exist (i) clarifying the guidelines and main tasks 
for selecting minority cadres; (ii) strengthening the training and 
education of minority cadres and further improving their political and 
professional quality; (iii) strengthening the team of minority cadres 
at the basic levels; (iv) strengthening the team of minority 
specialists and technical cadres; (v) carefully selecting the minority 
cadres who are to be leaders; and (vi) including the training and 
selection of minority cadres in the agendas of departments in each 
area.\32\
---------------------------------------------------------------------------
    \31\ A National People's Congress has a term of five years. See 
Constitution  59; Proposal Regarding the Allocation of Quotas for the 
Minority Representatives of the Tenth National People's Congress 
(adopted on April 28, 2002, by the 27th Session of the Standing 
Committee of the Ninth National People's Congress), which is a 
reiteration of proposals for prior National People's Congress (6th 
through 9th) for minority representation on the National People's 
Congress.
    \32\ Opinion of the State Ethnic Affairs Commission on the Work of 
Further Training and Selecting Minority Cadres, effective December 30, 
1993, Zhongzufa [1993] No. 9.
---------------------------------------------------------------------------
Regional and local laws and regulations on local executive governance
    Implementing measures\33\ provide for the composition of residents' 
committees, which are the most basic autonomy organization of the 
people. Measures also relate to the election of representatives of the 
TAR to the National People's Congress and people's congresses at all 
levels. Representatives of the TAR on the National People's Congress 
and the representatives on the people's congresses of the autonomous 
regions or cities are to be elected by the lower-level people's 
congresses.\34\ Voters shall directly elect the representatives on the 
people's congresses of cities, areas 
directly under the control of the municipalities, counties, autonomous 
counties, villages, ethnic villages, and townships.\35\ The standing 
committees of the people's congresses of autonomous areas or cities are 
to manage the election of representatives to the people's congresses at 
their level, and the lower level administrative subdivisions are to 
establish election committees to manage the election of representatives 
to the people's congresses at their levels.\36\ The Election Measures 
set forth the number of representatives serving in the various levels 
of people's congresses in the TAR.\37\ If other minorities live in 
concentrated areas in the TAR, then they also are to have 
representatives sitting on the people's congresses in accordance with 
the national election law.\38\ The Election Measures provide for the 
creation of electoral districts, voter registration, nomination of 
candidates, and election procedures. If a person has the right to 
directly elect a representative, he or she shall exercise his or her 
vote by presenting either an identification or voting card. If more 
than half of the electorate vote, then the vote is valid, and a 
candidate will be considered to be elected if he or she receives a 
majority of votes.\39\ Where the people's Congress at the county level 
and above elect the representatives to the next level people's 
congress, the former shall convene a meeting, and a candidate will be 
considered to be elected if he or she receives a majority of the votes 
of all of the representatives.\40\ Elections are to be conducted by 
secret ballot.\41\ The Election Measures also provide that all Chinese 
citizens 18 or older have the right to vote and to be elected to the 
people's congresses.\42\ All documents used in elections shall be in 
both Chinese and Tibetan.\43\ It is an offense, among other things, to 
incite ethnic relations, destroy the unity of the peoples, or instigate 
the separation of peoples.\44\ Meetings of the people's Congress of the 
TAR must be conducted in both Chinese and Tibetan.\45\
---------------------------------------------------------------------------
    \33\ Implementing Measures of the TAR for the Law of the People's 
Republic of China on the Organization of Urban Residents Committees 
(adopted on December 26, 1993, by the Seventh Session of the Standing 
Committee of the Sixth TAR People's Congress), and Detailed Rules for 
the Implementation of Elections of Representatives of People's 
Congresses at All Levels Within the Tibet Autonomous Region (adopted on 
April 18, 1981, by the 5th Session of the Standing Committee of the 
Third TAR People's Congress; as amended through the September 28, 1995, 
by the 16th Session of the Standing Committee of the Sixth TAR People's 
Congress in accordance with the Decision of the 12th Session of the 
Standing Committee of the Eight National People's Congress on February 
28, 1995, on the Amendment to the Law of the People's Republic of China 
on the Election of the National People's Congress and the People's 
Congresses at All Levels in the Localities) (the ``Election 
Measures'').
    \34\ Election Measures,  2.
    \35\ Election Measures,  2.
    \36\ Election Measures,  8.
    \37\ Election Measures,  13.
    \38\ Election Measures,  18.
    \39\ Election Measures,  44, 52.
    \40\ Election Measures,  45, 52.
    \41\ Election Measures,  46.
    \42\ Election Measures,  3.
    \43\ Election Measures,  20.
    \44\ Election Measures,  59(2).
    \45\ Procedural Rules for the People's Congress of the Tibet 
Autonomous Region (adopted on 
August 7, 1989, by the Second Session of the Fifth TAR People's 
Congress and amended on January 20, 2002, by the 24th Session of the 
Standing Committee of the Seventh TAR People's Congress),  4.
---------------------------------------------------------------------------
National laws and regulations on police and security
    Section 120 of the Constitution provides that the autonomy agencies 
of ethnic autonomous areas may, upon the approval of the State Council 
and in accordance with the military system of the State and the needs 
of the locality, organize public security forces for the local area to 
safeguard social and public order.
Regional and local laws and regulations on police and security
    The TAR and various prefectures in Qinghai Province have adopted 
regulations to implement the Decision of the Standing Committee of the 
National People's Congress on Strengthening the Comprehensive 
Administration of Social and Public Order. The regulations set forth a 
framework to combat crime, specifying the roles of various agencies 
such as the courts, people's procuracies, public security bureaus, 
state security agencies, judicial agencies, and the people's armed 
police, as well as agencies, social groups, and enterprises. The goal 
is to combat crime by organizing social forces to use political, 
economic, legal, administrative, cultural, educational, and other 
measures to attack, prevent, and reduce crime and safeguard social 
order and stability. The local regulations for the TAR and the Haixi 
prefecture require the ``relevant departments'' to ``strengthen the 
management'' of religious affairs.\46\
---------------------------------------------------------------------------
    \46\ Regulations of the Tibet Autonomous Region on the 
Comprehensive Administration of Public Security (effective August, 18, 
1994; adopted on August 18, 1994, by the 10th Session of the Standing 
Committee of the Sixth TAR People's Congress and amended on May 9, 
2002, by the 26th Session of the Standing Committee of the Seventh TAR 
People's Congress),  14; Regulations of Haixi Mongolian and Tibetan 
Autonomous Prefecture on the Comprehensive Administration of Public 
Security (effective October 1, 1995; adopted on April 25, 1995, by the 
Sixth Session of the Standing Committee of the Ninth People's Congress 
of the Haixi Mongolian and Tibetan Autonomous Prefecture of Qinghai 
Province and approved on July 29, 1995, by the 19th Session of the 
Standing Committee of the Eighth People's Congress of Qinghai 
Province),  26.
---------------------------------------------------------------------------
Regional and local laws and regulations on minorities' rights
    The Law of the People's Republic of China on Assemblies, 
Processions and Demonstrations and the implementing measures of the 
TAR\47\ and Lhasa Municipality\48\ require permits to be issued by the 
competent authorities before assemblies, processions, and 
demonstrations may be held. Competent authorities include public 
security bureaus of the locality, municipality, or county.\49\ No 
person may use religious or other activities to initiate or organize 
any assemblies, processions, or demonstrations that endanger the unity 
of the State or destroy the unity of ethnic groups or social 
stability.\50\ Activities that oppose the Constitution, harm the State, 
instigate division among ethnic groups, or endanger public security and 
order are prohibited.\51\ Citizens may not initiate, organize, or 
participate in any assembly, procession, or demonstration held in 
cities outside the place where they reside. Without the approval of the 
competent authorities, foreign nationals may not participate in any 
assemblies, processions, or demonstrations organized by citizens in the 
TAR.\52\ Measures adopted in the TAR are also intended to implement the 
national legislation for the protection of women, minors, and disabled 
persons. Guarantees are established to promote the equality and rights 
of women and the disabled and set forth the legal obligations of 
parents to minors and the obligation of guardians, schools, social 
organizations, and the judicial system.\53\
---------------------------------------------------------------------------
    \47\ Implementing Measures of the Tibet Autonomous Region for the 
Law of the People's Republic of China on Assemblies, Processions and 
Demonstrations (adopted on May 15, 1990, by the 10th Session of the 
Standing Committee of the Fifth TAR People's Congress).
    \48\ Implementing Measures of Lhasa Municipality for the Law of the 
People's Republic of China on Assemblies, Processions and 
Demonstrations(effective May 15, 1990; adopted on May 5, 1990, by the 
17th Session of the Standing Committee of the Fifth People's Congress 
of Lhasa Municipality and approved on May 15, 1990, by the 10th Session 
of the Standing Committee of the Fifth TAR People's Congress).
    \49\ Supra note 53,  5; supra note 54,  4.
    \50\ Supra note 53,  4; supra note 54,  5.
    \51\ Law of the People's Republic of China on Assemblies, 
Processions and Demonstrations, Article 12; supra note 54,  12.
    \52\ Supra note 53,  13, 23; supra note 54,  25.
    \53\ See Implementing Measures of the Tibet Autonomous Region for 
the Law of the People's Republic of China on the Protection of the 
Rights and Interests of Women (adopted on August 18, 1994, by the 10th 
Session of the Standing Committee of the Sixth TAR People's Congress 
and amended on March 29, 1997, by the 23rd Session of the Standing 
Committee of the Sixth TAR People's Congress), Implementing Measures of 
the Tibet Autonomous Region for the Law of the People's Republic of 
China on the Protection of Minors (adopted on November 23, 1994, by the 
12th Session of the Standing Committee of the Sixth TAR People's 
Congress, amended on March 29, 1997, by the 23rd Session of the 
Standing Committee of the Sixth TAR People's Congress, and further 
amended on November 25, 1999, by the 10th Session of the Standing 
Committee of the Seventh TAR People's Congress), and Implementing 
Measures of the Tibet Autonomous Region for the Law of the People's 
Republic of China on the Protection of Disabled Persons (effective 
April 1, 1998; adopted on January 9, 1998, by the 28th Session of the 
Standing Committee of the Sixth TAR People's Congress and amended on 
July 26, 2002, by the 27th Session of the Standing Committee of the 
Seventh TAR People's Congress).
---------------------------------------------------------------------------
                                ECONOMY

National laws and regulations on economic rights
    The PRC Autonomy Law grants autonomy agencies the authority to 
govern matters that affect the economic conditions of minority areas 
under their administration. Under the PRC Autonomy Law, autonomy 
agencies have the authority to determine the use, ownership, and 
protection of grasslands and forests; manage and protect natural 
resources; and undertake local infrastructure projects. Autonomy 
agencies also have the authority to develop foreign economic and trade 
activities and manage local finances, including contingency funds, 
taxation, banks, and credit cooperatives.
    The PRC Autonomy Law stipulates that:

(a) The State shall formulate preferential policies to support the 
        development of foreign economic and trade activities of 
        autonomous areas, expand the foreign trade powers of production 
        enterprises in the autonomous areas, and encourage the export 
        of locally produced products. Autonomous areas may open foreign 
        trade ports with the approval of the State Council. Areas that 
        share a border with foreign countries may, upon the approval of 
        the State Council, develop border trade. Such areas shall enjoy 
        preferential policies of the State with respect to their 
        foreign economic and trade activities.\54\
---------------------------------------------------------------------------
    \54\ 31.
---------------------------------------------------------------------------
(b) The State is to formulate preferential policies to attract and 
        encourage the investment of domestic and foreign capital in 
        ethnic autonomous areas. In determining national social and 
        economic development plans, the ``higher level state agencies'' 
        shall give attention to the special characteristics and needs 
        of ethnic autonomous areas.\55\ In accordance with uniform 
        plans and market demand, the State shall give priority to 
        natural resource development projects and infrastructure 
        projects in ethnic autonomous areas. In major infrastructure 
        projects, the State will ``appropriately'' increase the 
        proportion of its investment and the ratio of ``policy-nature'' 
        bank loans. When arranging infrastructure projects in ethnic 
        areas, the State may reduce the amount of matching funds that 
        an ethnic area must provide or exempt them entirely.\56\
---------------------------------------------------------------------------
    \55\ 55.
    \56\ 56.
---------------------------------------------------------------------------
(c) ``Higher level state agencies'' shall support the improvement of 
        conditions for the production for agriculture, animal 
        husbandry, and forestry industries, as well as water, 
        transportation, energy, communications, and other 
        infrastructure.\57\
---------------------------------------------------------------------------
    \57\ 63.
---------------------------------------------------------------------------
(d) When the State develops natural resources or carries out 
        construction in autonomous regions, the State shall consider 
        the interests of the autonomous area and make arrangements that 
        benefit the economy of the autonomous area, with consideration 
        to the production and lives of local minorities. The State 
        shall take measures to give compensation for natural resources 
        that are transported out of autonomous areas.\58\
---------------------------------------------------------------------------
    \58\ 65.
---------------------------------------------------------------------------
(e) Autonomy agencies have the authority to manage and protect natural 
        resources in autonomous areas.\59\
---------------------------------------------------------------------------
    \59\ 28.

    The Ministry of Labor has implemented preferential labor policies 
for minority 
autonomous areas such as lowering minimum standards for recruitment, 
giving minorities priority in employment if all conditions are equal, 
and giving priority to hiring minorities to fill jobs created by 
natural attrition. In addition, the Ministry has sought to encourage 
minority students to take entrance exams for vocational training 
schools and to require vocational schools in minority areas to enroll a 
``certain percentage'' of minority students and ``appropriately'' 
modify the admissions score standards.\60\
---------------------------------------------------------------------------
    \60\ Letter of the General Office of the Ministry of Labor on 
Giving Special Consideration to Minority Areas in respect of Labor 
Matters (Laobantinghanzi (1991) No. 11, April 8, 1991.
---------------------------------------------------------------------------
    The Provisions on the Management of Subsidies for Minority 
Areas\61\ authorize subsidies for minorities in the national budget to 
meet special expenses of minorities for promoting production, culture, 
education, medical care, and health.
---------------------------------------------------------------------------
    \61\ Issued on July 7, 1979, by the State Ethnic Affairs Commission 
and the Ministry of Finance.
---------------------------------------------------------------------------
Regional and local laws and regulations on economic rights
    The regional and local autonomy regulations that implement the PRC 
Autonomy Law in the autonomy areas in Qinghai, Sichuan, and Yunnan 
Provinces (specifically the prefectures of Yushu, Guoluo, Haixi, Ganzi, 
A Ba, and Qiang, Diqing and Muli County) contain provisions on economic 
rights that essentially mirror the corresponding provisions in the 
national PRC Autonomy Law. Autonomy agencies have autonomy in arranging 
and managing the economic development and the finances of the 
autonomous area. The autonomy agencies are mandated to actively 
organize the procurement and supply of goods that are specially 
required by minorities and to give support and consideration in the 
form of ``capital, technology, and the supply of raw materials.'' \62\
---------------------------------------------------------------------------
    \62\ E.g., Autonomy Regulations of Hainan Tibetan Autonomous 
Prefecture (effective October 1, 1987; adopted on April 25, 1987, by 
the Second Session of the Eighth People's Congress of the Hainan 
Tibetan Autonomous Prefecture and approved on July 18, 1987, by the 
27th Session of the Standing Committee of the Sixth People's Congress 
of Qinghai Province) (the ``Hainan Autonomy Regulations''),  30 and 
35; Autonomy Regulations of A Ba Tibetan and Qiang Autonomous 
Prefecture (effective July 12, 1986; adopted on May 21, 1986, by the 
Fourth Session of the Fifth People's Congress of the A Ba Tibetan 
Autonomous Prefecture and approved on July 12, 1986, by the 20th 
Session of the Standing Committee of the Sixth People's Congress of 
Sichuan Province; adopted on January 5, 1988, by the First Session of 
the Sixth People's Congress of the A Ba Tibetan and Qiang Autonomous 
Prefecture and approved on March 16, 1988, by the 2nd Session of the 
Standing Committee of the Seventh People's Congress of Sichuan 
Province) (the ``A Ba Autonomy Regulations''),  37.
---------------------------------------------------------------------------
Regional and local laws and regulations on natural resources
    Regulations of the TAR provide for the ``rational development'' and 
use of mineral resources.\63\ Entities that develop mineral resources 
in the TAR are to take into 
account the interests of the people in the mining area and promote 
economic development and social progress in the area.\64\ All levels of 
people's governments are to actively encourage and attract mining 
activities in remote and impoverished areas.\65\ Other regulations 
protect scenic areas, lakes, rivers, and drinking water sources; 
control air and noise pollution; and provide other environmental 
protections.\66\
---------------------------------------------------------------------------
    \63\ Regulations of the Tibet Autonomous Region on the Management 
of Mineral Resources (effective July 1, 1999; adopted on April 1, 1999, 
by the 6th Session of the Standing Committee of the Seventh TAR 
People's Congress and amended on January 20, 2002, by the 24th Session 
of the Standing Committee of the Seventh TAR People's Congress),  3.
    \64\ Supra note 69,  4.
    \65\ Supra note 69,  5.
    \66\ Regulations of the Tibet Autonomous Region on the Protection 
of the Environment (effective September 1, 2003; adopted on July 24, 
2003, by the Fifth Session of the Standing Committee of the Eighth TAR 
People's Congress).
---------------------------------------------------------------------------
    The regulations of Tianzhu County in Gansu Province require that 
mining programs must implement policies relating to ethnic groups as 
well as laws relating to workers of an ethnic group and are to respect 
the minorities' traditions and religion and safeguard and develop the 
unity of ethnic groups.\67\ Prefecture regulations give priority to the 
prefecture regarding the rational development and use of natural 
resources.\68\ In Gannan prefecture of Gansu Province, a portion of the 
gold or silver produced may be used by ethnic minorities in the area to 
make decorative products.\69\
---------------------------------------------------------------------------
    \67\ Regulations of Tianzhu Tibetan Autonomous County of Gansu 
Province on the Management of Mineral Resources (effective March 1, 
1995; adopted on March 20, 1994, by the Second Session of the 
Thirteenth People's Congress of Tianzhu Tibetan Autonomous County, 
approved on January 21, 1995, by the 13th Session of the Standing 
Committee of the Eighth People's Congress of Gansu Province, and 
amended on March 26, 1999, by the 9th Session of the Standing Committee 
of the Ninth People's Congress of Gansu Province),  4.
    \68\ E.g., A Ba Autonomy Regulations,  25; Autonomy Regulations of 
Ganzi Tibetan Autonomous Prefecture (effective July 12, 1986; adopted 
on June 4, 1986, by the Third Session of the Fifth People's Congress of 
the Ganzi Tibetan Autonomous Prefecture and approved on July 12, 1986, 
by the 20th Session of the Standing Committee of the Sixth People's 
Congress of Sichuan Province),  29; Autonomy Regulations of Muli 
Tibetan Autonomous County (effective March 13, 1992; adopted on March 
18, 1990, by the First Session of the Seventh People's Congress of the 
Muli Tibetan Autonomous County and approved on March 13, 1992, by the 
28th Session of the Standing Committee of the Seventh People's Congress 
of Sichuan Province),  24.
    \69\ Regulations of Gannan Tibetan Autonomous Prefecture of Gansu 
Province on the Management of Mineral Resources (adopted on March 30, 
1999, by the Second Session of the Twelfth People's Congress of Gannan 
Tibetan Autonomous Prefecture and approved on May 26, 2000, by the 16th 
Session of the Standing Committee of the Ninth People's Congress of 
Gansu Province),  24.
---------------------------------------------------------------------------
                                CULTURE

National laws and regulations on education
    Official opinions and notices\70\ direct public institutions to 
take measures aimed at ensuring an adequate education for minorities. 
To this end, schools may waive or lower tuition and other fees for 
minority students who have special hardships; minority young people 
with work experience or who have excelled should have priority in 
admission into colleges and universities; preparatory classes at 
colleges and universities should be available to minorities; students 
who successfully complete the one year preparatory program and who have 
``a good political outlook'' should be admitted to colleges or 
universities; threshold admission scores may be lowered for minority 
students; central government subsidies should be provided for the 
development of vocational education for minorities; schools for 
teachers are permitted to have quotas for the admission of minority 
students from ethnically commingled areas and minority graduates of 
such schools are to be given priority in assignments to schools for 
minorities or schools that have a large minority student population; 
medical schools in minority areas must guarantee that an 
``appropriate'' number of minority students are accepted each year such 
that the ratio of minority students to non-minority students will 
``eventually'' reflect the population ratio in the minority area; and 
medical schools in economically developed provinces should be paired up 
with those in minority areas--encouraging visiting teachers from 
minority areas to conduct advanced study and research and sending 
specialists to minority areas to teach, hold seminars, and train local 
professionals. For example, Beijing should support Inner Mongolia, 
Shandong should support Qinghai, Tianjin should support Gansu, Shanghai 
should support Yunnan and Ningxia, and the entire country should 
support Tibet.
---------------------------------------------------------------------------
    \70\ E.g., Opinion on Strengthening Medical Education in Minority 
Areas (effective May 26, 1980, issued by the Ministry of Health, the 
State Ethnic Affairs Commission and the Ministry of Education), Opinion 
on Strengthening the Vocational Skills Education of Minorities and 
Minority Areas (effective April 8, 1992, Jiaozhi [1992] No. 8, issued 
by the State Education Commission), Opinion on the Recruitment of 
Excellent Minority Youth into Colleges and Universities (effective 
October 16, 1992, Jiaominting [1992] No. 13, issued by the Office of 
the State Education Commission), Opinion on Supporting the Poor through 
Education in the 143 Impoverished Minority Counties Throughout the 
Country (effective October 19, 1992, Jiaominting [1992] No. 12, issued 
by the Office of the State Education Commission), Opinion on 
Strengthening Minority Education in Areas Where Minorities are 
Commingled (effective November 2, 1992, Jiaominting [1992] No. 15, 
issued by the Office of the State Education Commission), Opinion on 
Strengthening Minority Preparatory Classes in Ordinary Colleges and 
Universities (effective November 17, 1992, Jiaominting [1992] No. 17, 
issued by the Office of the State Education Commission), Notice on 
Circulating the Guide on the Development of Electronic Education 
Systems for Minorities and in Minority Areas (effective March 9, 1993, 
Jiaodian [1993] No. 2, issued by the State Education Commission and the 
State Ethnic Affairs Commission), Notice on Use of Uniform Textbooks 
for Students in Minority Preparatory Classes (effective May 12, 1993, 
Jiaominting [1993] No. 10, issued by the Office of the State Education 
Commission), Notice on Fulfilling Recruitment Plans for Minority 
Classes in Universities Directly Administered by the Ministry of 
Education (dated May 19, 1999, issued by the Ministry of Education), 
Opinion on Accelerating Vocational Education Reform and Development for 
Minorities and Minority Areas (effective July 28, 2000, Minweifa [2000] 
No. 199, issued by the State Ethnic Affairs Commission and the Ministry 
of Education).
---------------------------------------------------------------------------
    With respect to medical education, special attention is to be given 
to the development of minority medical studies, Mongolian, Tibetan, and 
Uighur medical studies shall be performed in Inner Mongolia, Qinghai, 
and Xinjiang, respectively.\71\
---------------------------------------------------------------------------
    \71\ Opinion on Strengthening Medical Education in Minority Areas 
(effective May 26, 1980, issued by the Ministry of Health, the State 
Ethnic Affairs Commission and the Ministry of Education),  4.
---------------------------------------------------------------------------
Regional and local laws and regulations on education
    The PRC Autonomy Law provides that the autonomy agencies have the 
authority, in accordance with the education policies, laws, and 
regulations of the State, to determine the education plans of the 
locality, establishing all types of schools, the school system, the 
form of classes, the curriculum, the language of instruction, and the 
method of recruiting students.\72\ Public schools for ethnic minorities 
shall primarily be boarding schools with special financial assistance 
targeting schools in minority pastoral areas and mountainous regions 
where minorities are dispersed and there are economic difficulties. The 
local financial departments are to ``resolve'' the funding for 
establishing schools and for providing financial aid. If they have 
difficulties, then the higher level financial departments are to grant 
subsidies.\73\ Schools and other educational institutes that focus on 
minority students and have the 
resources shall use textbooks in minority languages. In addition, the 
minority language shall be the language of instruction. Chinese classes 
will be offered, depending on the circumstances in the lower grades of 
elementary schools or middle schools. Putonghua and standardized 
Chinese characters will be promoted.\74\ Regional and local laws and 
regulations that govern education have been formulated to implement the 
Law of the People's Republic of China on Compulsory Education, which 
requires nine years of compulsory education. Religion may not be 
advocated in schools, and superstitious thinking may not be 
propagated.\75\ In the TAR and Gansu, Qinghai, and Sichuan Provinces, 
all children, including minority children, who have reached the age of 
six or seven are required to enroll in school and receive their 
compulsory education for a prescribed number of years, which may be 
less than the nine year goal depending on circumstances in the 
locality.\76\ In the TAR and Gansu, Qinghai, and Sichuan Provinces, 
laws and regulations ensure that minority students receive instruction 
in both their minority language and Chinese.\77\ In some of these 
provinces, regulations ensure that students use textbooks in minority 
languages.\78\ In the Hainan prefecture of Qinghai, teacher training 
schools for minorities are to be established for training elementary 
school teachers. The teaching schools are to strengthen the teaching of 
the Chinese and Tibetan languages and other subjects so that student 
elementary teachers can master both Chinese and Tibetan and other 
required subjects.\79\
---------------------------------------------------------------------------
    \72\  36.
    \73\ 37.
    \74\ Ibid.
    \75\ E.g., Measures for the Implementation of the Law of the 
People's Republic of China on Compulsory Education (adopted on February 
25, 1994, by the 8th Session of the Standing Committee of the Sixth 
People's Congress of the TAR, and amended on November 23, 2001, by the 
23rd Meeting of the Standing Committee of the Seventh People's Congress 
of the TAR) (the ``TAR Education Regulations''),  6; Measures of 
Qinghai Province for the Implementation of the PRC Compulsory Education 
Law (effective October 1, 1988; adopted on September 2, 1988, by the 
4th Session of the Standing Committee of the Seventh People's Congress 
of Qinghai Province and amended on August 28, 1992, by the 28th Session 
of the Standing Committee of the Seventh People's Congress of Qinghai 
Province) (the ``Qinghai Education Regulations''),  11.
    \76\ E.g., TAR Education Regulations,  7; Measures of Gansu 
Province for the Implementation of the PRC Compulsory Education Law 
(adopted on September 3, 1990, by the 16th Session of the Standing 
Committee of the Seventh People's Congress of Gansu Province; amended 
on May 28, 1997, by the 27th Session of the Standing Committee of the 
Eighth People's Congress of Gansu Province; and further amended on 
March 30, 2002, by the 27th Session of the Standing Committee of the 
Ninth People's Congress of Gansu Province),  8; Qinghai Education 
Regulations,  5; Supplementary Provisions of A Ba Tibetan and Qiang 
Autonomous Prefecture to Implement the Compulsory Education Regulations 
of Sichuan Province (effective April 6, 1998; adopted on December 13, 
1997, by the First Session of the Eighth People's Congress of the A Ba 
Tibetan and Qiang Autonomous Prefecture and approved on April 6, 1998, 
by the 2nd Session of the Standing Committee of the Ninth People's 
Congress of Sichuan Province) (the ``A Ba Education Regulations''),  
3; Provisions of Ganzi Tibetan Autonomous Prefecture for the 
Implementing Regulations of Sichuan Province on Compulsory Education 
(effective May 28, 1991; adopted on December 21, 1990, by the 11th 
Session of the Standing Committee of the Sixth People's Congress of 
Ganzi Tibetan Autonomous Region and approved by the 23rd Session of the 
Standing Committee of the Seventh People's Congress on May 28, 1991) 
(the ``Ganzi Education Regulations''),  3.
    \77\ E.g., Tibet Education Regulations,  20; Gansu Education 
Regulations,  5; Qinghai Education Regulations,  10; A Ba Qiang 
Education Regulations,  5; Ganzi Education Regulations,  8.
    \78\ E.g., Minority Education Regulations of the Hainan Tibetan 
Autonomous Prefecture (effective October 1, 1994; adopted on March 30, 
1994, by the 6th Session of the Standing Committee of the Ninth 
People's Congress of the Hainan Tibetan Autonomous Prefecture of 
Qinghai Province, approved on July 30, 1994, by the 11th Session of the 
Standing Committee of the Eighth People's Congress of Qinghai Province; 
adopted on November 30, 1997, by the Third Session of the Tenth 
People's Congress of Hainan Tibetan Autonomous Prefecture and amended 
and approved on April 3, 1998, by the 1st Session of the Standing 
Committee of the Ninth People's Congress of Qinghai Province),  11.
    \79\ Minority Education Regulations of the Hainan Tibetan 
Autonomous Prefecture (effective October 1, 1994; adopted on March 30, 
1994, by the 6th Session of the Standing Committee of the Ninth 
People's Congress of the Hainan Tibetan Autonomous Prefecture of 
Qinghai Province, approved on July 30, 1994, by the 11th Session of the 
Standing Committee of the Eighth People's Congress of Qinghai Province; 
adopted on November 30, 1997, by the Third Session of the Tenth 
People's Congress of Hainan Tibetan Autonomous Prefecture and amended 
and approved on April 3, 1998, by the 1st Session of the Standing 
Committee of the Ninth People's Congress of Qinghai Province),  26.
---------------------------------------------------------------------------
    No person may carry out religious activities or ``advocate'' 
religion to students in elementary or high schools.\80\ Other 
regulations prohibit school age children from entering temples and ban 
religious organizations from recruiting them for religious study.\81\
---------------------------------------------------------------------------
    \80\ E.g., TAR Education Regulations,  6; Qinghai Education 
Regulations,  11; A Ba Education Regulations,  6.
    \81\ E.g., Ganzi Education Regulations,  6; Compulsory Education 
Regulations of Yushu Tibetan Autonomous Prefecture (effective November 
23, 1994; adopted on May 13, 1994, by the Fifth Session of the Eighth 
People's Congress of the Yushu Tibetan Autonomous Prefecture of Qinghai 
Province and approved on November 23, 1994, by the 13th Session of the 
Standing Committee of the Eighth People's Congress of Qinghai 
Province),  13; Compulsory Education Regulations of the Guoluo Tibetan 
Autonomous Prefecture (effective October 1, 1995; adopted by the Sixth 
Session of the Ninth People's Congress of the Guoluo Tibetan Autonomous 
Prefecture of Qinghai Province and approved by the 19th Session of the 
Standing Committee of the Eighth People's Congress of Qinghai Province 
on July 29, 1995),  12.
---------------------------------------------------------------------------
National laws and regulations on language
    Official notices and national laws provide for the development of 
minority languages\82\ and indicate that all ethnic groups have the 
freedom to use and develop their own oral and written language.\83\ 
Autonomy agencies of ethnic autonomous areas are to use the local 
commonly used language or languages in performing their duties in 
accordance with the stipulations of the autonomy regulations of the 
ethnic autonomous areas.\84\ Han cadres working in minority areas are 
required to learn the local minority language, and minority cadres must 
learn Chinese.\85\ All ethnic groups are encouraged to learn each 
other's languages.\86\ Ethnic groups that do not have their own written 
language or standard written language are encouraged to choose an 
existing written language.\87\ Schools with mostly minority students 
are required to use textbooks in the minority language of the students. 
While the language of instruction will be the minority language, 
Chinese language classes are to be offered at the appropriate grade and 
the use of Putonghua is to be promoted.\88\ For the medical education 
of minorities under the Opinion on Strengthening Medical Education in 
Minority Areas,\89\ minority languages may be used provided that the 
schools have adequate resources. Departments involved in publishing 
have been instructed to actively support the requests of ethnic groups 
with a standardized written language to publish books in ethnic 
languages, regardless of the size of the ethnic group. The budget for 
minority publishing is to be increased on an annual basis, and efforts 
should be made to increase printing and expand the distribution of 
minority publications.\90\
---------------------------------------------------------------------------
    \82\ E.g., Report of the State Ethnic Affairs Commission on Further 
Doing a Good Job in Respect of Minority Languages (issued on April 30, 
1991, by the State Ethnic Affairs Commission and transmitted on June 
19, 1991, by the State Council) (``SEAC Report''), PRC Autonomy Law. 
PRC Autonomy Law,  10; Regulations on the Work on Urban Ethnic Groups 
(effective September 15, 1993; approved on August 29, 1993, by the 
State Council),  20.
    \83\ Constitution, Article 4 ; Law of the People's Republic of 
China on the Commonly Used Oral and Written Language of the State 
(effective January 1, 2001; adopted on October 31, 2000, by the 18th 
Session of the Standing Committee of the Ninth National People's 
Congress and published on October 31, 2000, by Decree No. 137 of the 
People's Republic of China),  8; PRC Autonomy Law,  10.
    \84\ Constitution,  121.
    \85\ E.g., Hainan Autonomy Regulations,  56.
    \86\ SEAC Report.
    \87\ Ibid.
    \88\ PRC Autonomy Law,  37.
    \89\ Effective May 26, 1980, issued by the Ministry of Health, the 
State Ethnic Affairs Commission, and the Ministry of Education,  1.
    \90\ Report of the State Ethnic Affairs Commission and the State 
Publishing Bureau on Strengthening the Publication of Books in Minority 
Languages (transmitted on March 14, 1981, by the State Council).
---------------------------------------------------------------------------
    Article 134 of the Constitution provides that citizens of all 
ethnic groups have the right to use their own minority language in 
conducting litigation. In addition, the people's courts and the 
people's procuracies are to provide translators for litigants who are 
not familiar with the locally used language. In hearing cases in areas 
where minorities are concentrated or where several minorities reside, 
the locally used language is to be used. Complaints, judgments, 
notices, and other written documents shall be in the locally used 
language or languages in accordance with actual needs.
Regional and local laws and regulations on language
    Regional and local laws and regulations guarantee the freedom of 
Tibetan minorities to use and develop their own language.\91\ They also 
stipulate that the languages of all ethnic groups are equal.\92\ All 
official seals, forms of identification, and signs of regional and 
local government agencies, as well as signage for public facilities, 
advertisements, place names, street signs, and so forth are required to 
be in the local minority language.\93\ Judicial agencies and courts at 
all levels are required to use minority languages in hearing or 
investigating cases and to provide litigants with interpreters.\94\ 
Minorities also have the right to use their minority language when 
undertaking ``letters to and visits with officials.'' \95\ Other 
minority language protections include laws and regulations providing 
that individuals who speak both Tibetan and Chinese enjoy preferential 
treatment with respect to hiring for government positions and\96\ that 
Tibetan language broadcasting, television programs, and other media be 
developed.\97\ Election materials may be in minority languages,\98\ and 
product packaging and product information for goods that are 
manufactured in the TAR or autonomous prefectures for sale in those 
areas are to be written in Chinese and Tibetan.\99\
---------------------------------------------------------------------------
    \91\ E.g., Hainan Autonomy Regulations,  7; Haibei Autonomy 
Regulations,  8; A Ba Autonomy Regulations,  6.
    \92\ E.g., Provisions of the TAR on the Study, Use and Development 
of the Tibetan Language (adopted on July 9, 1987, by the Fifth Session 
of the Fourth TAR People's Congress and amended on May 22, 2002, by the 
Fifth Session of the Seventh TAR People's Congress) (the ``TAR Language 
Regulations''),  2; Working Regulations of the Gannan Tibetan 
Autonomous Prefecture of Gansu Province on the Tibetan Language 
(approved on June 1, 1996, by the 21st Session of the Standing 
Committee of the Eighth People's Congress of Gansu Province). (the 
``Gannan Language Regulations''),  2; Working Regulations of the 
Hainan Tibetan Autonomous Prefecture on the Tibetan Language (effective 
on June 28, 1990, adopted on May 20, 1989, by the Fifth Session of the 
Eighth People's Congress of the Hainan Tibetan Autonomous Prefecture 
and approved on June 28, 1990, by the 15th Session of the Standing 
Committee of the Seventh People's Congress of Qinghai Province), (the 
``Hainan Language Regulations''),  2.
    \93\ E.g., TAR Language Regulations,  11; Gannan Language 
Regulations,  14; Hainan Language Regulations,  10; Working 
Regulations of the Ganzi Tibetan Autonomous Prefecture on the Use of 
the Tibetan Language (adopted on November 21, 1997, by the Fifth 
Session of the Seventh People's Congress of the Ganzi Tibetan 
Autonomous Prefecture and approved on April 6, 1998, by the 2nd Session 
of the Standing Committee of the Ninth People's Congress of Sichuan 
Province) (the ``Ganzi Language Regulations''),  18.
    \94\ E.g., TAR Language Regulations,  5; Gannan Language 
Regulations,  12; Hainan Language Regulations,  16; Ganzi Language 
Regulations,  10.
    \95\ The ``letters and visits'' system is a petition system that 
allows individuals to make complaints or present grievances to state 
agencies and officials by writing letters, making phone calls, or 
visiting such agencies. E.g., Hainan Language Regulations,  17, Ganzi 
Language Regulations,  11.
    \96\ TAR Language Regulations,  10; Working Regulations of the 
Tianzhu Tibetan Autonomous County of Gansu Province on the Tibetan 
Language (adopted on January 18, 1999, by the Second Session of the 
Fourteenth People's Congress of the Tianzhu Tibetan Autonomous County 
and approved on March 26, 1999, by the 9th Session of the Standing 
Committee of the Ninth People's Congress of Gansu province),  8.
    \97\ TAR Language Regulations,  9; Hainan Language Regulations,  
20; Ganzi Language Regulations,  15.
    \98\ Ganzi Language Regulations,  9; Working Regulations of the 
Guoluo Tibetan Autonomous Prefecture on the Tibetan Language (effective 
July 17, 1993, adopted on April 24, 1993, by the Fourth Session of the 
Ninth People's Congress of Guoluo Tibetan Autonomous Prefecture and 
approved on July 17, 1993, by the 4th Session of the Standing Committee 
of the Eighth People's Congress of Qinghai Province) (the ``Guoluo 
Language Regulations''),  13.
    \99\ TAR Language Regulations,  12; Gannan Language Regulations,  
15; Hainan Language Regulations,  11; Ganzi Language Regulations,  
18.
---------------------------------------------------------------------------
National laws and regulations on cultural traditions
    Official notices and explanations\100\ that govern cultural 
traditions protect certain traditions, particularly ancient texts as 
well as the oral and funeral traditions of minority groups. The 
preservation, collection, and organization of ancient texts of ethnic 
groups have been deemed a priority by the State Ethnic Affairs 
Commission, which identifies such texts as part of China's cultural 
heritage.\101\ Relevant departments have been instructed to create the 
necessary working and living conditions for specialists to organize 
ancient texts.\102\ The provinces, autonomous regions, and 
municipalities directly under the central authorities are to organize 
people to collect and save oral traditions.\103\ The right of certain 
minority groups to retain or ``reform'' their own funeral traditions is 
also respected. Although subject to certain restrictions for the 
protection of public health such as the prohibition on moving and the 
requirement for immediate sterilization and cremation of bodies of 
persons who have died of the bubonic plague, cholera, or anthrax, no 
group may be forced to carry out cremations.\104\
---------------------------------------------------------------------------
    \100\ Notice of the Office of the State Council Transmitting the 
Request of the State Ethnic 
Affairs Commission on Saving and Organizing Ancient Minority Books 
(April 19, 1984) (the ``Ancient Text Notice''); Explanation Regarding 
the Provisions of the Funeral Management Regulations of the State 
Council Relating to Respect of Minority Funeral Traditions (effective 
June 10, 1999, issued by the Ministry of Civil Affairs, the State 
Ethnic Affairs Commission, and the Ministry of Health; Minshifa [1999] 
No. 17) (the ``Burial Provisions'').
    \101\ Ancient Text Notice, Preamble.
    \102\ Ancient Text Notice, Preamble.
    \103\ Ancient Text Notice, Section 2(5).
    \104\ Burial Provisions,  1, 2 and 3.
---------------------------------------------------------------------------
Regional and local laws and regulations on cultural traditions
    Regional and local laws and regulations that govern cultural 
traditions vary. The development of Tibetan medical undertakings is to 
be included in the national economic and social development plans, as 
well as regional public health plans.\105\1 Public health institutions 
are required to have Tibetan medical personnel, instruments and 
equipment, and a Tibetan medical pharmacy.\106\ Some regulations also 
encourage the development of traditional Tibetan medicine, as well as 
the protection and management of herb, plant, animal, and mineral 
resources used in the production of Tibetan medicines.\107\ The 
people's governments at all levels in the Gannan prefecture of Gansu 
Province are required to protect and promote Tibetan and traditional 
Chinese medicine.\108\ Other regulations call for the promotion of 
Tibetan medical studies, the development of Tibetan medical theory and 
practice, and the gradual regularization, scientificization, and 
modernization of Tibetan medical work.\109\
---------------------------------------------------------------------------
    \105\ Regulations of Qinghai Province on the Development of 
Chinese, Tibetan and Mongolian Medicine (effective June 1, 2002; 
adopted on March 29, 2002, by the 29th Session of the Standing 
Committee of the Ninth People's Congress of Qinghai Province) (the 
``Qinghai CTM Medicine Regulations''),  7; Regulations of Qinghai 
Province on the Development of Chinese, Tibetan and Mongolian Drugs 
(effective October 1, 2002; adopted on July 29, 2002, by the 31st 
Session of the Standing Committee of the Ninth People's Congress of 
Qinghai Province) (the ``Qinghai CTM Drug Regulations''),  4; 
Regulations of the Gannan Tibetan Autonomous Prefecture of Gansu 
Province Regarding the Development of Tibetan Medicine (approved on 
September 28, 2001, by the 24th Session of the Standing Committee of 
the Ninth People's Congress of Gansu Province) (the ``Gannan Tibetan 
Medicine Regulations''),  5.
    \106\ Gannan Tibetan Medicine Regulations,  11.
    \107\ Qinghai CTM Drug Regulations,  11; Gannan Tibetan Medicine 
Regulations,  10; Regulations of the Yushu Tibetan Autonomous 
Prefecture on the Management of Tibetan Medicine (effective November 1, 
1995, approved on May 14, 1995, by the Sixth Session of the Eighth 
People's Congress of the Yushu Tibetan Autonomous Prefecture of Qinghai 
Province and adopted on September 22, 1995, by the 20th Session of the 
Standing Committee of Eighth People's Congress of Qinghai Province),  
8, 9.
    \108\ Regulations of the Gannan Tibetan Autonomous Prefecture of 
Gansu Province Regarding the Development of Tibetan Medicine (approved 
on September 28, 2001, by the 24th Session of the Standing Committee of 
the Ninth People's Congress of Gansu Province).
    \109\ Qinghai CTM Regulations,  18, 22, 23; Gannan Tibetan 
Medicine Regulations,  4.
---------------------------------------------------------------------------
Regional and local laws and regulations on the family
    Regional and local laws and regulations that govern reproduction 
allow for variations from the national ``one couple, one child'' 
policy, which is not strictly enforced in minority regions. Although 
the ``one couple, one child'' policy\110\ is advocated for Tibetans, a 
second child is permitted, and a third child is controlled.\111\ If 
both the husband and wife are state cadres, workers, or other non-rural 
residents, then permission for a second child may be granted if either 
the husband or wife is Tibetan or the first child has been evaluated as 
a child with a nonhereditary illness and is unable to participate in 
the normal labor force.\112\ With respect to Tibetan people who live in 
pastoral villages or forested areas, the one child policy shall be 
advocated, but second and third children are permitted.\113\ For the 
third child, spacing between births is advocated. In the case of state 
cadres, workers and other non-rural persons, and rural and pastoral 
residents who wish to have a second child, the period shall be at least 
three years.\114\ ``Remedial measures'' may deal with unplanned 
pregnancies for couples who already have two children. In areas that 
permit three children, when a couple already has three children, either 
the husband or wife must undergo sterilization.\115\
---------------------------------------------------------------------------
    \110\ Regulations of Gansu Province on Population and Family 
Planning (adopted on November 28, 1989, by the 11th Session of the 
Standing Committee of the Seventh People's Congress of Gansu Province, 
amended on September 29, 1997, and further amended on September 27, 
2002),  21; Regulations of Qinghai Province on Population and Family 
Planning (effective January 1, 2003; adopted on September 20, 2002, by 
the 32nd Session of the Standing Committee of the Ninth People's 
Congress of Qinghai Province),  13; Adapting Provisions of the Gannan 
Tibetan Autonomous Prefecture of Gansu Province on the Implementation 
of the Regulations of Gansu Province on Family Planning (adopted on 
September 2, 1999, by the 11th Session of the Standing Committee of the 
Ninth People's Congress of Gansu Province) (the ``Gannan Family 
Planning Regulations''); Measures of Ganzi Tibetan Autonomous 
Prefecture on Family Planning (adopted on June 24, 1988, by the 27th 
Session of the Standing Committee of the Fifth People's Congress of 
Ganzi Tibetan Autonomous Prefecture and approved on May 8, 1989, by the 
9th Session of the Standing Committee of the Seventh People's Congress 
of Sichuan Province; amendment adopted on December 18, 1998, by the 
35th Session of the Standing Committee of the Seventh People's Congress 
of Ganzi Tibetan Autonomous Prefecture and approved on June 1, 1999, by 
the 9th Session of the Standing Committee of the Ninth People's 
Congress of Sichuan Province) (``Ganzi Family Planning Regulations'').
    \111\ Gannan Family Planning Regulations,  3.
    \112\ Gannan Family Planning Regulations,  4; Ganzi Family 
Planning Regulations,  4.
    \113\ Gannan Family Planning Regulations,  5; Ganzi Family 
Planning Regulations,  14, 15.
    \114\ Gannan Family Planning Regulations,  6; Ganzi Family 
Planning Regulations,  16.
    \115\ Gannan Family Planning Regulations,  9.
---------------------------------------------------------------------------
    In the TAR, Qinghai, and Sichuan, traditional minority marriage 
ceremonies are permitted, though polygamy and polyandry have been 
abolished, and religion may not be used to ``interfere'' with 
marriage.\116\ Laws and regulations in certain Tibetan prefectures in 
Qinghai and Sichuan expressly protect the right of persons of different 
ethnic groups to marry one another.\117\ Prohibitions exist for 
arranged marriages and the sale of a person into marriage.\118\
---------------------------------------------------------------------------
    \116\ Adapting Regulations of the TAR on the Implementation of the 
Marriage Law of the People's Republic of China (effective January 1, 
1982; adopted on April 18, 1981, by the 5th Session of the Standing 
Committee of the Third TAR People's Congress),  2, 3, 4; Supplemental 
Provisions of the Huangnan Tibetan Autonomous Prefecture on the 
Implementation of the PRC Marriage Law (effective August 7, 1982; 
approved on August 7, 1982, by the 19th Session of the Standing 
Committee of the Fifth People's Congress of Qinghai Province) (the 
``Huangnan Marriage Provisions''),  4; Supplemental Provisions of the 
Haibei Tibetan Autonomous Prefecture on the Implementation of the PRC 
Marriage Law (effective July 16, 1983; approved on July 16, 1983, by 
the 2nd Session of the Standing Committee of the Sixth People's 
Congress of Qinghai Province) (the ``Haibei Marriage Provisions''),  
3; Supplemental Provisions of the Ganzi Tibetan Autonomous Prefecture 
of Sichuan Province on the Implementation of the PRC Marriage Law 
(effective July 1, 1982; adopted on November 19, 1981, by the Sixth 
Session of the Fourth People's Congress of Ganzi Tibetan Autonomous 
Prefecture and approved on December 26, 1981, by the 13th Session of 
the Standing Committee of the Fifth People's Congress of Sichuan 
Province) (the ``Ganzi Marriage Provisions''),  3, 7.
    \117\ Huangnan Marriage Provisions,  5; Haibei Marriage 
Provisions,  4.
    \118\ Ganzi Marriage Provisions,  4, Supplemental Provisions of A 
Ba Tibetan and Qiang Autonomous Prefecture on the Implementation of the 
PRC Marriage Law (effective January 1, 1984; adopted on March 17, 1983, 
by the 12th Session of the Standing Committee of the Fourth People's 
Congress of the A Ba Tibetan Autonomous Prefecture and approved on July 
12, 1983, by the 2nd Session of the Standing Committee of the Sixth 
People's Congress of Sichuan Province; amended on July 8, 1988, by the 
4th Session of the Standing Committee of the Sixth People's Congress of 
A Ba Tibetan and Qiang Autonomous Prefecture and approved on September 
26, 1988, by the 5th Session of the Standing Committee of the Seventh 
People's Congress of Sichuan Province),  2; Hainan Marriage 
Provisions,  3.
---------------------------------------------------------------------------
National laws and regulations on religion
    Under a 1952 State Council decision, all minorities are to enjoy, 
among other things, the same freedom of religion as is enjoyed by Han 
people in the same locality.\119\ The State Ethnic Affairs Commission 
requires that the observance of minority holidays, dietary 
restrictions, and religious practices be allowed.\120\
---------------------------------------------------------------------------
    \119\ Supra note 13,  1.
    \120\ Supra note 15, Parts 3 and 4.
---------------------------------------------------------------------------
    The PRC Autonomy Law requires the autonomy agencies of ethnic 
autonomy areas to guarantee the freedom of religion of citizens of all 
ethnic groups. No state agency, social group, or individual may force 
any citizen to adopt any beliefs or disavow any religious beliefs and 
may not discriminate against citizens who have religious beliefs and 
those who do not. The State protects ``normal'' religious activities. 
However, no person may use religion to destroy social order, damage the 
health or well-being of citizens, or interfere with the state education 
system. In addition, religious groups and institutions may not accept 
support from ``foreign forces.'' \121\
---------------------------------------------------------------------------
    \121\ PRC Autonomy Law,  11.
---------------------------------------------------------------------------
Regional and local laws and regulations on religion
    While the government respects and protects the religious freedom of 
citizens,\122\ all religious activities must be carried out within the 
scope of the Constitution and in compliance of all laws, regulations, 
and policies.\123\ All religious groups and places of religious 
activity and individuals must accept the leadership of the Communist 
Party of China and the government and support the socialist 
system.\124\ Religion or places of religious activity may not be used 
to incite trouble, create havoc, or carry out criminal activities such 
as separatism, destroy the unity of ethnic groups, or disturb social 
and public order.\125\
---------------------------------------------------------------------------
    \122\ Interim Measures of the TAR on the Administration of 
Religious Affairs (effective December 20, 1991; adopted on December 9, 
1991, by the Standing Committee of the TAR People's Government) (the 
``TAR Religion Measures''), 1; Interim Provisions of Gansu Province on 
the Administration of Religious Affairs (effective November 16, 1991, 
adopted by the 21st Session of the Standing Committee of the People's 
Government of Gansu Province) (the ``Gansu Religion Provisions''),  
29; Provisions of Yunnan Province on the Administration of Religious 
Affairs (effective January 1, 1998; adopted on December 2, 1997, and 
issued on December 25, 1997, by the 39th Session of the Standing 
Committee of the People's Government of Yunnan Province) (the ``Yunnan 
Religion Provisions''), 3.
    \123\ TAR Religion Measures,  2; Provisions of Qinghai Province 
for the Administration of Places of Religious Activity (effective 
October 1, 1992; adopted by the 28th Session of the Standing Committee 
of the Seventh People's Congress of Qinghai Province) (the ``Qinghai 
Religious Places Provisions''), 10; Gansu Religion Provisions,  21; 
Yunnan Religion Provisions,  5.
    \124\ TAR Religion Measures,  3; Qinghai Religious Places 
Provisions,  12; Gansu Religion Provisions,  29.
    \125\ TAR Religion Measures,  25; Gansu Religion Provisions,  8; 
Yunnan Religion Provisions,  6.
---------------------------------------------------------------------------
    The approval of the people's government is required for the 
rebuilding or opening of all places of religious activity.\126\ 
Registered places will receive legal protection.\127\ Places of 
religious activity are to be managed by ``patriotic religious groups 
whose members must support the Party and socialism, be patriotic and 
law abiding, and who safeguard the unity of the State and ethnic 
groups.\128\
---------------------------------------------------------------------------
    \126\ TAR Religion Measures,  4; Qinghai Religious Places 
Provisions,  3; Gansu Religion Provisions,  5, 7; Yunnan Religion 
Provisions,  15.
    \127\ TAR Religion Measures,  4; Gansu Religion Provisions,  5.
    \128\ TAR Religion Measures,  16, 18; Qinghai Religious Places 
Provisions,  6; Gansu Religion Provisions,  6, 33; Yunnan Religion 
Provisions,  9.
---------------------------------------------------------------------------
    The Interim Measures of the TAR on the Administration of Religious 
Affairs set a quota and application system for monks and nuns.\129\ 
Applicants who wish to become a monk or nun must, among other things, 
be patriotic and law abiding.\130\
---------------------------------------------------------------------------
    \129\ 7.
    \130\ 8.
---------------------------------------------------------------------------
    Propaganda and publishing departments are to control the 
publication of documents that contain religious content so that they 
conform with the religious policies of the Party or the State.\131\ 
Approval from ``relevant departments'' is required to edit, publish, or 
distribute religious materials, including video and audio 
recordings.\132\
---------------------------------------------------------------------------
    \131\ TAR Religion Measures,  27.
    \132\ Yunnan Religion Provisions,  26; Gansu Religion Provisions, 
 9.
---------------------------------------------------------------------------
    In Gansu Province, religious teachers may not proselytize outside 
places of religious activity.\133\ Moreover, the activities of self-
proclaimed preachers are prohibited.\134\
---------------------------------------------------------------------------
    \133\ Gansu Religion Provisions,  11.
    \134\ Gansu Religion Provisions,  24.
---------------------------------------------------------------------------
    With respect to foreign contacts, places of religious activity are 
to abide by the principles of independence and autonomy.\135\ No 
foreign donations for proselytizing activities that have ``conditions'' 
attached to them may be accepted.\136\ Major donations from foreign 
organizations or followers require the approval of the people's 
government or the religious affairs bureau of the State Council.\137\ 
Foreign personnel who go to Qinghai may not, ``without approval,'' 
broadcast audio or video tapes of sermons by foreign religious persons 
or distribute religious tracts.\138\
---------------------------------------------------------------------------
    \135\ TAR Religion Measures,  19; Qinghai Religious Places 
Provisions,  19; Gansu Religion Provisions,  38; Yunnan Religion 
Provisions,  7.
    \136\ TAR Religion Measures,  24; Yunnan Religion Provisions,  
29.
    \137\ TAR Religion Measures,  24; Gansu Religion Provisions,  41.
    \138\ Qinghai Religious Places Provisions,  20.
---------------------------------------------------------------------------
                                 ______
                                 

              Prepared Statement of Christopher P. Atwood

                             APRIL 11, 2005

    I would first like to express my appreciation for the opportunity 
to appear today before the Congressional Executive Commission on China 
and present my perspective on the question of ``China's Regional 
Autonomy Law: Does it Protect Minority Rights? ''
    Rather than discuss the broad range of minority rights issues in 
play in Inner Mongolia today, I would like to focus on the issue of 
``ecological migration'' which illustrates in a striking matter how the 
guarantees of autonomy in the regional autonomy law fail to provide 
protection against massive state-directed dislocation of the Mongol 
nationality in China.\1\
---------------------------------------------------------------------------
    \1\ Information on ecological migration is very difficult to 
obtain, a fact which by itself casts doubt on whether the policy's 
rationale and implications have been sufficiently debated. In preparing 
this paper I have been greatly assisted by the panelists at the panel 
``Ecological Migration: Environment, Ethnicity, and Human Rights in 
Inner Mongolia,'' which I chaired at the 
Association for Asian Studies (AAS) Annual Meeting in Chicago on April 
3, 2005. I would like to thank the panelists Judith Shapiro (American 
University), Jeannine Brown (graduate student, University of East 
London), Hong Jiang (University of Wisconsin at Madison), S. Sodbilig 
(Inner Mongolia University), and Enhebatu Togochag (Southern Mongolian 
Human Rights Information Center) for their very informative and 
insightful papers and comments.
---------------------------------------------------------------------------
    The earliest versions of ``ecological migration'' were pioneered in 
the early 1990s in Alashan district in far-western Inner Mongolia under 
the moniker ``three-ways labor restructuring.'' Responding to ongoing 
severe desertification and pasture degradation in Inner Mongolia's 
driest district, the Alashan authorities started with the basic premise 
that excess population and livestock are at the root of pasture 
degradation. Their ``three-ways restructuring'' plan envisioned one-
third of the current pastoral population continuing as herders, one-
third switching to arable cultivation, and one-third entering township 
or urban enterprises.\2\ In 2001, this basic idea was adopted by the 
Inner Mongolian government and renamed ``ecological migration.'' The 
vastly expanded plan involved moving up to 650,000 persons out of areas 
where grasslands are being subject to serious degradation into towns 
and other areas.\3\ Considerable sums are being assigned to build 
housing and other infrastructure for the new migrants, although whether 
these sums are adequate is controversial.\4\ In most areas it appears 
the relocations are not total with a small number of herders regarded 
as rationally managing rangeland being allowed to stay.\5\ Those 
relocated may return after five years if they too can demonstrate an 
ability to manage the grassland ``scientifically.'' Thus ``ecological 
migration'' is accelerating the trend to 
polarization in which a small number of relatively well-off herders 
(whether ethnically Mongol or Han Chinese) who have assimilated 
contemporary Chinese ideas of proper livestock management will continue 
herding, while the poorer, less sophisticated herders will be forced 
off the land. This social polarization corresponds to a polarization in 
the landscape itself, in which slowing expanding oases of intensively 
managed fodder and crop fields are set within rapidly growing desert 
areas, both squeezing out the remaining areas of usable natural grass 
pasture.
---------------------------------------------------------------------------
    \2\ A. Hurelbaatar, ``A Survey of the Mongols in Present-Day China: 
Perspectives on Demography and Culture Change,'' in Mongolia in the 
Twentieth Century: Landlocked Cosmopolitan, ed. Stephen Kotkin and 
Bruce A. Elleman (Armonk: M.E. Sharpe, 1999), p. 201.
    \3\ A key question about which data remains scarce is the actual 
destinations of ``ecological migrants.'' In Uushin Juu sumu (Mongol 
township), Hong Jiang found that ecological migrants were being 
directed not to the mostly Mongol township center, but to the new town 
(zhen) of Chaghan Sume (Chinese Chahanmiao) with a population of over 
10,000 that are ``mostly migrants from outside the area'' recruited to 
exploit a natural gas field (Hong Jiang, ``Fences, Ecologies, and 
Changes in Pastoral Life: Sandy Land Reclamation in Uxin Ju, Inner 
Mongolia, China'' [unpublished paper], and ``Cooperation, Land Use, and 
the Environment in Uxin Ju: The Changing Landscape of a Mongol-Chinese 
Borderland in China,'' Annals of the Association of American 
Geographers,'' 94.1 [2004], p. 129). In Alashan it appears that half of 
the herders or 20-25,000 were originally to be resettled on a 70,000 
hectare oasis communities as farmers, although the construction of this 
oasis seems to be currently mired in corruption, incompetence, and 
flawed science (Jeannine W. Brown, State Sponsored Resettlement in 
Inner Mongolia: A Case Study in Environmental Forced Migration [M.A. 
Thesis, University of East London, 2004], pp. 35-36; ``Irresponsible 
cultivation causes desertification, environmental destruction threatens 
Beijing,'' August 21, 2004, at http:www.smhric.orgnews--45.htm, 
accessed April 13, 2005). Many of the migrants are slated to become 
sedentary dairy farmers working with foreign-breed milk cows; see 
Brown, op. cit., pp. 43-44.
    \4\ In Ordos, migrants receive 20,000 yuan ($2,400) being given to 
each migrant (Jiang, ``Fences, Ecologies, and Changes in Pastoral 
Life''). In Chakhar, Mongol herders being moved due to the production 
of a power plant received 10,000 yuan ($1,100) if they agreed to 
renounce all return to their previous pastures; those who wish to 
retain their right to return would receive only a mud-brick house worth 
5,000 yuan ($550) and would have to purchase an Australian milk cow; 
see ``Power Plant Project Forces Local Mongols to Abandon Ancestral 
Lands,'' September 4, 2003, at http:www.smhric.orgnews--30.htm 
(accessed April 6, 2005).
    \5\ In Ereen Khot (Erlian) the city boundaries were recently 
expanded to include pastures with 354 herding households. Of these only 
50-80 have been chosen to be allowed to stay on the land to promote 
``animal husbandry for tourism.'' See ``Ereen Hot municipality lends 
every effort to implement ecological migration project,'' August 8, 
2004, at http:www.smhric.orgnews--43.htm (accessed April 13, 2005). 100 
households are being moved from Buridu gachaa (a sub-township unit) in 
Uushin Juu township (Jiang, ``Fences, Ecologies, and Changes in 
Pastoral Life''); the only figure on the total population of that 
gachaa available to me, that of 210 households in 1984 (Nei Menggu 
Zizhiqu diming zhi: Yike Zhao meng fence [Hohhot: Inner Mongolian 
Autonomous Region Local Names Commission, 1986], p. 326), would 
indicate that roughly a third of the households are being moved.
---------------------------------------------------------------------------
    Any evaluation of ``ecological migration'' must deal with the 
undeniable ecological crisis in Inner Mongolia and the legacy of 
decades of over-reclamation and over-grazing. Massive dust storms in 
Beijing have alerted China's central government to the seriousness of 
the situation. There exists a consensus among outside observers that 
while overstocking of livestock, particular sheep and goats valued for 
their wool and cashmere, today is currently driving much pasture 
degradation, historically it is over-reclamation of marginal lands for 
farming that has damaged Inner Mongolian pastures the most.\6\ Although 
Inner Mongolian policy in 1984 officially prohibited further 
reclamation of pasture, the 2003 land-use law in Inner Mongolia 
appears to again encourage ``wild-cat'' land reclamation.\7\ 
Economically, the bankruptcy of smaller-scale, less capitalized 
producers and their replacement by larger-scale commercialized 
producers is a universal, if often painful, aspect of economic 
development, although rarely so explicitly decreed by the government as 
in this case.
---------------------------------------------------------------------------
    \6\ Dennis Sheehy, ``Grazing Management Strategies as a Factor 
Influencing Ecological Stability of Mongolian Grasslands,'' Nomadic 
Peoples 33 (1993), pp. 17-30, esp. pp. 26-27.
    \7\ ``Inner Mongolian authorities carry out new policies: Land use 
first, formalities later on'' June 24, 2003 at 
http:www.smhric.orgnews--27.htm (accessed April 6, 2005).
---------------------------------------------------------------------------
    In terms of human rights ``ecological migration'' raises serious 
problems. On an individual level we can ask, are the transfers truly 
voluntary? Are the residents being adequately compensated and given the 
ability to make a living in their new homes? Reports are contradictory. 
One geographer working in Ordos reports that the possibility of a 
prosperous town life is enticing for many poor herders, yet the fact 
that in this same community the possibility of returning after five 
years is also being touted as a concession palliation indicates 
migrants may have reasonable doubts of whether they will really succeed 
as towns people.\8\ Other observers report cases of forcible eviction 
by the police of communities unwilling to move.\9\ Undoubtedly 
implementation of such a vast program differs widely in the localities. 
Yet it would be naive to put too much stock in the possibility of the 
implementation of such movement being fully voluntary. ``Ecological 
migration'' is now government policy, adopted without significant 
public input and those slated for migration are undoubtedly aware that 
resistance is futile.\10\ As with any issue of (broadly speaking) 
eminent domain, i.e. use of government power to abridge citizens' 
existing property rights, the question is, does this abridgement 
disproportionately affect one community more than another and was the 
decision taken with input from all the affected communities?
---------------------------------------------------------------------------
    \8\ See Hong Jiang, ``Fences, Ecologies, and Changes in Pastoral 
Life.''
    \9\ Gardi Borjigin,``Inner Mongolian Environment Threatened, Nomads 
Forced to Move,'' at 
http:www.expertclick.comNewsReleaseWiredefault.cfm?Action=ReleaseDetail&
ID=8211 (accessed April 6, 2005).
    \10\ In April, 2002, a speech by CCP Politburo member Jiang Chunyun 
on tour in eastern Inner Mongolia monitored by the BBC made it clear 
that effectively implementing ecological migration will be the test for 
any cadre who hopes for promotion. ``Any cadres in desertified areas 
who fail to attach importance to the environment should not be cadres; 
those who fail to build a sound environment are not good cadres . . . 
In areas where desertification is serious and where the conditions for 
human survival are more or less lost, ecological migration should be 
conducted.'' Jiang Chunyun's remarks on this tour are one of the 
clearest expression's of the central government's views on 
environmental policy in Inner Mongolia. See 
http:coranet.radicalparty.orgpressreviewprint--
right.php?func=detail&par=3268 (accessed April 13, 2005).
---------------------------------------------------------------------------
    Since pasture degradation is linked to the dynamics of herding and 
farming, an issue with long ethnic repercussions in Inner Mongolia, the 
``ecological migration'' issue must also be seen in the light of 
minority rights. Nomadic pastoralism was the traditional way of life 
for most Mongols up to the twentieth century and the herding life has 
been the font of Mongol values, art, literature, and national feeling. 
Although the pastoral Mongols in Inner Mongolia had largely shifted to 
shifted to sedentary ranching by the 1980s, herding remains important 
for the Mongols, both practically and symbolically.
    Yet I would like to dispose of a red herring immediately. 
``Ecological migration'' is often cast as a conflict of purely 
traditional Mongols, seen as stubbornly attached to rural life and 
pastoral nomadism for cultural reasons, and Han Chinese practicing 
innovative, high-productivity land use. In reality, however, the 
Mongols of Inner Mongolia are highly educated with strong aspirations 
to success in the modern sector. In fact their literacy rate is 
slightly higher than the Han Chinese, and they are over-represented in 
the ranks of cadres.\11\ Pastoralists in Inner Mongolian are more 
commercialized and have a higher income than farmers.\12\ For better or 
for worse, Mongol herders have been quite as willing to adopt the new 
intensive managerial strategy of herding.\13\ At the same time, the 
contention that this managerial ranching will be less harmful to the 
steppe than nomadic pastoralism is quite dubious scientifically; in 
fact increasing, not decreasing, mobility may be the key to saving the 
grasslands.\14\ What is beyond doubt is that the almost twenty years of 
state-directed and scientifically managed programs to alleviate 
grasslands degradation have not worked and indeed may well have 
accelerated desertification.\15\ The issue is thus not modernization 
vs. tradition, but ensuring that the Mongols have meaningful voice in 
the nature of the modernization of their own communities.
---------------------------------------------------------------------------
    \11\ Song Naigong, Zhongguo renkou (Nei Menggu fence) (Beijing: 
China Finance and Economics Press, 1987), pp. 363, 359-361.
    \12\ Nei Menggu da cidian (Hohhot: Inner Mongolia People's Press, 
1991), pp. 275, 296.
    \13\ Hong Jiang, ``Cooperation, Land Use, and the Environment in 
Uxin Ju,'' pp. 117-139.
    \14\ This was the conclusion reached by the large Macarthur 
Project; see Caroline Humphrey and David Sneath, The End of Nomadism? 
Society, State and the Environment in Inner Mongolia (Durham: Duke 
University Press), esp. pp. 292-93.
    \15\ Dennis Sheehy, op. cit.; Dee Mack Williams, Beyond Great 
Walls: Environment, Identity, and Development on the Chinese Grasslands 
of Inner Mongolia (Stanford: Stanford University Press, 2002), esp. pp. 
117-137; Hong Jiang, op. cit., esp. fig. 9.
---------------------------------------------------------------------------
    ``Ecological migration'' thus remains an ethnic issue. Although Han 
Chinese herders and farmers in affected areas are also being deported, 
the Mongols remain the predominant population group in the arid regions 
of Inner Mongolia slated for population removal, and hence are being 
disproportionately influenced by ecological migration.\16\ These arid 
grasslands constitute the heartlands of ethnic Mongol life, where they 
are the local majority and dominate their community as the long 
resident native population. Until the 2001, Mongolian language, social 
standards, and culture still formed the norm in these remote areas to 
which the immigrant Han Chinese partially conformed.\17\
---------------------------------------------------------------------------
    \16\ A BBC broadcast includes interviews with Han farmers from 
Taipusi Banner and Mongolian herders from around Shiliin Gol both being 
affected by ``ecological migration''; see 
http:www.bbc.co.ukworldserviceprogrammesramparched--landsparched--
lands3.ram (accessed April 6, 2005). While no ethnic breakdown has been 
released, the ethnic demography of Inner Mongolia and the overwhelming 
testimony of observers agree that mostly Mongols are being affected.
    \17\ Burton Pasternak and Janet W. Salaff, Cowboys and Cultivators: 
The Chinese of Inner Mongolia (Boulder: Westview, 1993), pp. 143-253.
---------------------------------------------------------------------------
    Ecological migration is breaking up many, if not most, of these 
last redoubts of Mongol community life in Inner Mongolia. In their new 
environments, the resettled migrants will often lack proper skills and 
aptitudes for their new occupations. Indeed by moving the most 
traditional and least capitalized and managerials-style herders, the 
authorities are choosing also the ones least likely to adapt to urban 
life. When settled on the outskirts of predominantly Han cities and 
towns, the Mongols often lack Mongol-language schools and become 
marginal residents in a culturally and socially alien environment. 
Already there are alarming signs of dramatic drops in income among the 
resettled migrants as well as sharp drops in school attendance as 
relocated Mongol students find themselves with either no local schools, 
or only Chinese-language ones.\18\
---------------------------------------------------------------------------
    \18\ A study of 111 households relocated in Sonid Right Banner 
showed their average incomes dropping from 2,872 yuan before relocation 
in 2000 to 503 yuan after relocation in 2002. At the same time their 
debt load rose from 0 yuan to 7,000-8,000 yuan. Enrollment in Inner 
Mongolia's elementary schools dropped 19.4 percent from 2002 to 2003. 
See Enhebatu Togochog, ``Ecological Immigration and Human Rights,'' 
paper presented at the Annual Meeting of the AAS, April 3, 2005.
---------------------------------------------------------------------------
    Ecological migration thus runs directly contrary to any minority 
right to preserve its own communal life. Before 1947, pasture in un-
reclaimed Mongol steppe was held collectively by the ``banner'' (or 
county-level unit). Decades of political and social conflict along the 
Mongol-Han frontier before 1947 had revolved around the Mongols' 
tenacious and resourceful attempts to protect these collective land 
rights from encroachment by Han Chinese land-developers and their 
allies in the provincial governments. From the very inception of 
Chinese Communist land reform, however, land was transferred to the 
Chinese state, with rural producers being granted only longer or 
shorter leases. The deprivation of land-rights has hardly affected only 
Mongols or minorities; collectivization in 1956 and the current rampant 
abuse of government powers of eminent domain to facilitate urban sprawl 
are two other particularly egregious examples of this cavalier 
disregard of land rights.\19\ Articles 27 and 28 of the Law on Regional 
National Autonomy discuss land use and give the autonomous regions the 
right to determine ownership of pastures and forests. The same 
articles, however, absolutely prohibit any ``damage'' to the grasslands 
by individuals or collectives, and call on the autonomous authorities 
to give ``priority to the rational exploitation and utilization of the 
natural resources that the local authorities are entitled to develop.'' 
Technocracy thus explicitly trumps any and all land rights. The ongoing 
destruction of Mongol local community life involved in ecological 
migration is thus fully in accord with and indeed may actually be 
mandated by China's regional national autonomy law, as long as one 
accepts the disputed premise that nomadism and overstocking are behind 
desertification.
---------------------------------------------------------------------------
    \19\ Abuses of eminent domain are also found in Inner Mongolia; see 
for example ``Power Plant Project Forces Local Mongols to Abandon 
Ancestral Lands,'' September 4, 2003, at http:www.smhric.orgnews--
30.htm (accessed April 6, 2005).
---------------------------------------------------------------------------
    Still, if Inner Mongolia's regional national autonomous organs 
actually spoke for the Mongol nationality, then the articles 27 and 28 
would still give the Mongols input into these technocratic land use 
decisions. This is, however, not the case. Along with the rejection of 
banner communal land-ownership in 1947, the newly created Inner 
Mongolian Autonomous Region also rejected the then common practice of 
over-lapping Han and Mongol local jurisdictions (Han counties or xian 
and Mongol banners) in favor of unitary local government. Inner 
Mongolia was eventually expanded to include most of China's far-flung 
Mongol communities, but only at the price of thereby acquiring an 
overwhelming Han majority. At the prefectural and county levels, 
administrative changes ostensibly intended to give each unit a balance 
of agricultural and pastoral economies frequently yoked sparsely 
settled majority-Mongol districts with vastly more populous Han-
majority districts. As a result, only in the arid zone townships (sumu) 
and in some purely steppe banners do Mongols actually predominate in 
government.\20\ At the prefectural and all-regional levels, Mongol 
cadres have the worst of both worlds: over-represented enough through 
``affirmative action'' to generate resentment, but not numerous enough 
to actually control decisionmaking in Mongol interests.\21\ This does 
not even take into account the power of the central government in 
Beijing. Thus the regional national autonomous organs simply cannot act 
as protectors of specifically Mongol ethnic interests.
---------------------------------------------------------------------------
    \20\ The sumu is a Mongol township; typically Mongols monopolize 
local government and police in the sumu even where Han migrants make up 
a large percentage or even a majority of the residents. See for example 
Pasternak and Salaff, Cowboys and Cultivators, esp. pp. 170-172. The 
special administrative terms used in Inner Mongolia's Mongol regions 
are as follows: Regular Chinese terms--Inner Mongolia's Mongol areas; 
Province--Autonomous Region; Prefecture or municipality--league (aimag 
in Mongolian, meng in Chinese); County (xian)--banner (khoshuu in 
Mongolia, qi in Chinese); Township (xiang)--sumu.
    \21\ William B. Jankowiak, in his Sex, Death, and Hierarchy in a 
Chinese City: An Anthropological Account (New York: Columbia University 
Press, 1993), pp. 33-37, 303, stresses the resentment which 
preferential policies for Mongols raise among Han in Inner Mongolia's 
capital, Hohhot; Uradyn E. Bulag describes the ethnic and regional 
factionalism in Inner Mongolian government in his ``Dialectics of 
Colonization and Ethnicity Building,'' in Governing China's Multiethnic 
Frontiers, ed. Morris Rossabi (Seattle: University of Washington Press, 
2004), pp. 84-116.
---------------------------------------------------------------------------
    Now, no one can deny that it would be fundamentally unfair for 
decisionmaking in a region only 16 percent Mongol, as Inner Mongolia as 
a whole is, to be monopolized by Mongols. Yet apart from such a 
monopoly, it is hard to see how the Mongols as a group can be said to 
have had any meaningful voice in the momentous decision taken in 2001 
to remove whole communities from their ancient ancestral homes. Under 
Chinese law, regional national autonomy is for better or for worse the 
only organ through which the minority nationalities exercise their 
collective right to autonomy, yet in a region with borders drawn 
wherever possible to combine Han and Mongol communities, such an 
autonomy cannot help but be fictitious. As a result, ``ecological 
migration,'' despite its origin within the Inner Mongolian bureaucracy, 
is one more example of the inability of Chinese regional national 
autonomy, as currently structured, to allow the legitimate concerns of 
minorities to even be voiced openly, let alone prevail in the public 
arena.
                                 ______
                                 

                Prepared Statement of Gardner Bovingdon

                             APRIL 11, 2005

    I have been invited to address the question of whether the Regional 
Autonomy Law protects ``minority rights'' in the Xinjiang Uyghur 
Autonomous Region. In a recent short monograph, I considered the matter 
at greater length.\1\ Here, I will focus on one particular right 
invoked in the Regional Autonomy Law: that of each non-Han 
ethnonational group, or minzu, to ``administer its own internal 
affairs'' within the autonomous unit(s) assigned to it. Throughout I 
will refer to these groups not as ``minorities'' but as ``minzu,'' a 
Chinese term which keeps attention focused not on their numbers but on 
their cultural distinctiveness with respect to Hans. I will take up 
three related matters: First, how is this right defined; in other 
words, what constitute ``internal affairs''? Second, who administers 
the right? Third, what legal recourse do groups have if the right is 
abridged?
---------------------------------------------------------------------------
    \1\ Available at http://www.eastwestcenterwashington.org/
Publications/bovingdon.pdf.
---------------------------------------------------------------------------
            1. A CONUNDRUM: WHAT ARE ``INTERNAL AFFAIRS? ''

    On its face, the term ``internal affairs'' seems irremediably 
vague. In fact, much of the political contention in Xinjiang can be 
understood as a dispute over the meaning of the term. The Law itself 
does little to clarify the question. Specific articles enumerate the 
rights of members of each minzu to vote, to be treated as equals with 
all other citizens, to use and develop their native language, to foster 
the ``excellent'' parts of their native culture, and to conduct court 
proceedings in their native language. Other articles describe special 
powers of autonomy, such as the right to modify national laws if 
inappropriate to local circumstances, to modify educational materials, 
to make special fiscal arrangements locally and with Beijing, and to 
propose general and special autonomy laws for each unit. Yet in each 
case the exercise of the power of autonomy is subject to approval by 
higher-level government organs. In plain language, it is not 
autonomous.\2\ In the view of many Uyghurs, a number of matters 
properly constitute ``internal affairs'' in the autonomous region 
bearing their name: control of immigration into Xinjiang; the 
exploitation of its land, water, and mineral resources; the content of 
education and the language in which it is delivered; the practice of 
religion; the choice of family size; and the management of expressive 
culture, including music, novels, film, and so on.\3\ At present all of 
these are beyond popular control.
---------------------------------------------------------------------------
    \2\ See, e.g., Moneyhon (2002).
    \3\ In a survey of autonomy regimes around the world, Hannum and 
Lillich suggest that most regimes offering substantial autonomy include 
local control of such matters, with the possible exception of 
population flows, and further include an independent legislature and 
judiciary (Hannum and Lillich 1980).
---------------------------------------------------------------------------
                  2. WHO IS TO ADMINISTER THIS RIGHT?

    If ordinary Uyghurs have little opportunity to manage their 
collective ``internal affairs,'' they must depend on political 
representatives to do so. As other scholars have demonstrated, there 
are very few mechanisms of interest aggregation available to ordinary 
citizens of China. Though the PRC Constitution explicitly guarantees 
free speech, assembly, and press (Article 35), many citizens have been 
prosecuted for words they have spoken or written, many others for 
taking part in demonstrations or peaceful gatherings. The evidence 
suggests that these restrictions have fallen with particular force on 
certain non-Han groups, such as Uyghurs. Attempts by Uyghur individuals 
or groups to raise concerns with the government, or even to express 
them publicly, have been harshly punished. Peaceful demonstrators, 
poets, teachers, and businesspeople have all been jailed on charges of 
``separatism'' or ``leaking state secrets.'' \4\ The stark limitations 
on popular political expression lend special importance to those who 
represent ordinary citizens in government organs and in the Party. The 
PRC's recent experiments with electoral democracy have thus far been 
confined to the local level. Most officials at higher levels of the 
government have long been and continue to be appointed by other 
officials. Party elites in autonomous units made extraordinary efforts 
to recruit government officials from among non-Hans during the 15 years 
after the PRC was founded. Their considerable success is reflected in 
the more than one hundred thousand non-Hans in government positions in 
Xinjiang by 1965. Of a total body of 190 thousand cadres, non-Hans thus 
constituted nearly 56 percent. Though well below their proportion in 
the general population (over 75 percent), these cadres lent substance 
by their numbers to the slogan of ``minzu regional autonomy.'' 
Unfortunately, the vast majority were purged during the Cultural 
Revolution (1966-76). By 1983, most of those had been reinstated and 
many more non-Hans recruited into the government, raising the total 
number to over 180 thousand. However, while the raw number of non-Han 
cadres rose substantially, their share in the total number fell over 10 
percentage points to around 43 percent (``XUAR gaikuang'' bianxiezu 
1985: 52-4). According to the PRC State Council's 2003 White Paper on 
Xinjiang, the percentage has risen again; today the nearly 350 thousand 
non-Han cadres constitute almost 52 percent of the total.\5\ The 
general point to be made is there consistently been a substantial gap 
between the proportion of non-Hans in government and in the population, 
though massive Han immigration has narrowed the gap considerably.
---------------------------------------------------------------------------
    \4\ For examples, see Dillon (2004); Becquelin (2004).
    \5\ Available at http ://www.china.org.cn/e-white/20030526/8.htm 
(Consulted 2005/04/01).
---------------------------------------------------------------------------
    The increased proportion of non-Hans in government positions since 
1970s was the direct result of Beijing's calls in the early 1980s for 
increased ``nativization'' (minzuhua) of governments in autonomous 
regions. Many Uyghurs and other non-Hans hoped that this presaged more 
numerically representative governance--and thus broader autonomy--in 
Xinjiang. The 2001 revision of the Regional Autonomy Law points in the 
opposite direction: where the original 1984 law suggested that 
officials ``as far as possible'' be selected from among non-Hans 
(Articles 16, 17, and 18), the new version stipulates only that 
positions be apportioned ``reasonably'' among groups.\6\
---------------------------------------------------------------------------
    \6\ The 1984 law is available in (Zhongyang dangxiao minzu zongjiao 
lilun shi 1998). The 2001 law can be found at http://www.cecc.gov/
pages/selectLaws/laws/
lawRegNatAuto.php?PHPSESSID=23df8b0d664177126ecb5807afd9598e (consulted 
2005/04/03).
---------------------------------------------------------------------------
    There has never been a corresponding initiative in the Party. The 
``percentage gap'' mentioned above is much more pronounced in the case 
of Party members. In 1987 only 38.4 percent of Party members in 
Xinjiang were non-Han, though non-Hans comprised over 60 percent of the 
population. The numbers subsequently fell. In 1994, the percentage of 
non-Han Party members had decreased to 36.7 percent.\7\ The small and 
falling proportion of non-Hans in Xinjiang's Party apparatus is 
particularly significant given the dominance of the CCP in political 
life. Party officials outrank government officials at corresponding 
ranks in the political hierarchy, and therefore have the final say in 
matters of consequence. The disproportion is even more pronounced in 
leadership positions. At all levels of the hierarchy from village to 
provincial level, the overwhelming majority of Party First Secretaries 
in Xinjiang have always been Hans; there has never been an official 
explanation of this seeming statistical anomaly.\8\
---------------------------------------------------------------------------
    \7\ Figures calculated from Xinjiang Nianjian (Xinjiang Yearbook), 
editions from 1988 and 1995. There are several plausible explanations 
for the disparity: either the Party was reluctant to recruit non-Hans, 
or they were averse to joining, or both.
    \8\ See, e.g., (McMillen 1979: 48). An authoritative observer notes 
drily that there was ``never . . . any suggestion that Party leaders in 
the nationality areas would need to be members of the relevant 
nationality'' (Mackerras 1994: 156).
---------------------------------------------------------------------------
    This level of numerical detail suggests in broad terms that Uyghurs 
and other non-Hans have never enjoyed representation in government 
organs commensurate with their proportions in the population, and have 
been even less well represented in the Party. It remains to point out 
that, in the estimation of ordinary Uyghurs, those Uyghurs who have 
risen to top leadership positions have been selected not for their 
responsiveness to popular concerns but because of their tractability. 
Thus the problem of defining the right under consideration is 
compounded by an inadequate body of representatives charged with giving 
that right political substance.

                     3. WHAT SAFEGUARDS THIS RIGHT?

    Where can ordinary Uyghurs turn if they feel their right to manage 
Uyghurs' internal affairs have been compromised and their 
representatives have not protected their interests? The Chinese legal 
scholar Yu Xingzhong illustrates a crucial weakness in the 2001 
Regional Autonomy Law. Though the law enumerates certain rights, 
including the one under consideration here, it is in his words ``non-
actionable'':

          ``The enforcement of this law . . . rests entirely on the 
        conscience and awareness of the departments concerned. If a 
        state organ fails to implement such a law, there is no legal 
        basis to hold such an organ responsible and hence no remedy can 
        be sought. . . . In addition, a basic law like this is 
        constitutional by nature and as such, like PRC constitution 
        itself, it is not actionable. Past experience has shown that 
        the Regional Autonomy Law has rarely been cited to decide court 
        cases.'' \9\
---------------------------------------------------------------------------
    \9\ (Yu Xingzhong n.d.).
---------------------------------------------------------------------------
    In plain language, the Law does not specify legal consequences if a 
right is abridged, nor does it indicate where redress might be pursued.
    In sum, given the fuzziness with which the right of each minzu to 
administer its own internal affairs is defined, the paucity of minzu 
representatives empowered to exercise that right in Xinjiang, and the 
absence of clear legal recourse if the right is infringed, one is led 
to the conclusion that the Regional Autonomy Law as amended in 2001 
does little to protect minority rights. It is to be hoped that the next 
version does better.

                               REFERENCES

    Becquelin, Nicolas. 2004. ``Criminalizing Ethnicity: Political 
Repression in Xinjiang.'' China Rights Forum:39-46. Available from 
http://www.hrichina.org/fs/view/downloadables/pdf/downloadable-
resources/b1--Criminalizing1.2004.pdf.
    Dillon, Michael. 2004. Xinjiang--China's Muslim Far Northwest. 
London: RoutledgeCurzon.
    Hannum, Hurst, and Richard B. Lillich. 1980. ``The Concept of 
Autonomy in International Law.'' American Journal of International Law 
74:858-89. Available from.
    Mackerras, Colin. 1994. China's Minorities: Integration and 
Modernization in the Twentieth Century. Oxford: Oxford University 
Press.
    McMillen, Donald H. 1979. Chinese Communist Power and Policy in 
Xinjiang, 1949-77. Boulder: Westview Press.
    Moneyhon, Matthew. 2002. ``Controlling Xinjiang: Autonomy on 
China's New Frontier.'' Asia-Pacific Law & Policy Journal 3:120-52. 
Available from http://www.hawaii.edu/aplpj/pdfs/v3-04-Moneyhon.pdf.
    ``XUAR gaikuang'' bianxiezu (Ed.). 1985. Xinjiang Weiwu'er Zizhiqu 
gaikuang (An overview of conditions in the XUAR). Urumqi: Xinjiang 
Renmin Chubanshe.
    Yu Xingzhong. n.d. ``From State Leadership to State Responsibility 
--Comments on the New PRC Law on Regional Autonomy of Ethnic 
Minorities.'' Hong Kong: Chinese University.
    Zhongyang dangxiao minzu zongjiao lilun shi (Ed.). 1998. Xin shiqi 
minzu zongjiao gongzuo xuanchuan shouce (Propaganda handbook for minzu 
and religion work in the new era). Beijing: Zongjiao wenhua chubanshe.

                                 <all>

</pre></body></html>
